<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2008

                              ----------                              


                        THURSDAY, MARCH 8, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:05 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Inouye, Reed, Stevens, Shelby, 
and Hutchison.

                         DEPARTMENT OF COMMERCE

            National Oceanic and Atmospheric Administration

STATEMENT OF VICE ADMIRAL CONRAD LAUTENBACHER, JR., 
            ADMINISTRATOR

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Good morning and welcome to the second 
hearing of the Commerce, Justice, Science Subcommittee. As I 
said in the first hearing, the themes of the subcommittee will 
be innovation, security, and accountability. Today's hearing 
will focus on two of the premiere agencies that promote 
innovation in our society and using the principles of the 
gathering storm, which is that innovation rests on research, 
discovery as well as on education. We are looking forward to 
hearing from the National Science Foundation (NSF) as well as 
the National Oceanic and Atmospheric Administration (NOAA).
    Just a brief announcement before I go more deeply into my 
statement and listen to our ranking member. On March 25, the 
subcommittee will conduct a classified hearing on the Federal 
Bureau of Investigation (FBI), which will deal with their role 
in counterterrorism. We remember that after 9/11, we chose not 
to create--but an agency within the agency. There are aspects 
of the agency's law enforcement responsibilities that are 
deeply involved in the global war against terrorism. We will be 
holding traditional public hearings but we will also be holding 
classified hearings. So we want to alert the members of the 
very important meeting with the FBI.
    But today, we're examining the budgets for the National 
Science Foundation and NOAA, focusing on innovation, education, 
and accountability. This isn't about line items in the budget. 
It's about our country and how we're going to compete in the 
global economy. It's about science. It's about the climate 
crisis. It's about educating our young people to come into the 
fields of science, technology, and engineering. We're holding 
this hearing in the midst of an awakening in this country about 
these particular issues. We all know that the issue just of 
climate--the climate crisis has resulted in a former colleague 
winning an Oscar and who knows, maybe a Nobel Prize.
    The CJS Subcommittee is the innovation subcommittee in the 
United States Senate appropriation process.
    NSF and NOAA are two key innovation agencies relating to 
discovery that have power to save lives, protect our 
communities, protect the planet, and create prosperity for our 
country. I'm pleased that the NSF is in the President's 
innovation agenda but I'm sorry that NOAA isn't as well.
    As we look at today's hearing, we will be looking at broad 
topics but I want to assure everyone that one of the areas of 
focus will be on the climate crisis. The CJS Subcommittee is 
going to look a little green while we look at the blue planet.
    What do I mean by that? I believe that every public policy 
should be based on sound science. In that way, we can build the 
coalitions necessary to create the positive and constructive 
solutions while minimizing at the same time, any economic 
increase or dislocation.
    As we look at the budget requests for NSF and NOAA, we're 
going to follow the roadmaps given to us by the National 
Academy of Sciences and the blueprint given to us by the Joint 
Ocean Commission initiative.
    Seventy percent of the Earth is covered by oceans. When you 
look at us from space, we are big blue. Our Nation's economy 
depends on the oceans, contributing over $120 billion to our 
Nation's economy, supporting 2 million jobs. The Senator from 
Alabama as well as myself, are coastal Senators. We know how 
important our oceans and our estuaries are. We also know how 
oceans influence the weather and we know that the focus also of 
this subcommittee will be a very good weather prediction.
    Alabama was hit very hard by Katrina and they worry about 
every hurricane season. Maryland was hit so hard most recently 
by Isabel. We need the National Weather Service but we need 
also those scientists and so on, that can give us early 
predictions and early warnings but also those kinds of things 
that mitigate against what is changing in our climate that then 
could be exacerbating these weather disruptions that we are 
seeing, from wild fires to hurricanes.
    At the same time, we want to know about education, how 
we're going to be able to attract the best and the brightest 
into science, engineering, and technology. What are the 
financial supports that we need to provide to be able to do 
that? Because that is where our future lies.
    At the same time, we'll be focusing on the accountability 
from the NOAA satellites to the NSF research stations and 
observatories. We know they are critical tools but we have 
faced cost overruns and schedule slippages.
    So we're here--we're here to really promote innovation. So 
it is not about agencies. It's not about line items, though it 
is about that. But it is about our Nation's future. I want to 
make sure we continue to be a superpower but that our 
superpower rests on our intellectual capital and the values 
that we stand for in the world.
    Having said that, I turn to my ranking member, Senator 
Shelby, for anything he has to say.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Madam Chairman and thank you, 
Admiral Lautenbacher and Dr. Bement for joining us today.
    This is an important hearing, as the chairman has pointed 
out because it gives me the opportunity to talk about the 
critical roles the National Oceanic and Atmospheric 
Administration we know as NOAA and the National Science 
Foundation, the NSF, play in the economic, scientific, and 
technology drive the engine of our country's economic future, 
as the chairman mentioned.
    Cutting edge technology creates a better quality of life 
for all of us. The strategic Federal investment in scientific 
research, particularly the funding supporting NSF has led to 
innovative problem solving and technological developments that 
have dramatically increased the country's economic growth.
    NOAA's budget request for the year 2008 is $3.8 billion. 
This is a decrease of $100 million from the funding level 
provided in the joint resolution of 2007.
    In stark contrast to the budget for NOAA, the budget 
request for NSF is $6.4 billion, an increase of $513 million 
over the 2007 joint resolution level.
    Our Nation as a whole seems to do more to protect--needs to 
do more to protect our citizens, not just with storm prediction 
but also with disaster response and community preparedness. We 
must improve short-term forecasting and gain a better 
understanding of long-term climate change. The National Weather 
Service, which is an important part of NOAA, is key to this 
understanding. After forecasting, we must explore what can be 
done in advance communications so that warnings can reach 
communities quicker. We must find better ways to respond. 
Emergency coordination after a severe storm is a critical but 
often overlooked function in saving lives.
    Last Friday, as a lot of you know, my home State of Alabama 
was devastated by a storm system that spawned killer 
tornadoes--I believe it was Thursday that claimed the lives of 
10 people and destroyed hundreds of homes and a school and 
severely damaged another school. In southeast Alabama's Coffee 
County, a tornado slammed into Enterprise High School. Not far 
from the school in Enterprise, an elderly woman was killed by 
flying storm debris. In west Alabama's Wilcox County, the storm 
claimed the life of a Miller's Fairy father who was crushed in 
his home.
    While we will never recover from the loss of life, I'm 
certain that the people of Alabama will work to rebuild even 
stronger communities and I will continue to do everything in my 
power to get them the resources that they need to do so. It 
will take time and resources for the damaged communities to 
begin to heal and erase the scars of this destruction and 
death.
    The people of Alabama--my State--are resilient and have 
already begun cleaning up and planning to rebuild. I saw this 
firsthand when I toured some of the damaged areas this past 
Saturday.
    But how can we ensure that they rebuild safer homes and 
schools to withstand the next storm? I don't have to be a NOAA 
weather forecaster to predict that another devastating storm 
will hit my State again and other States. It's just a matter of 
time.
    Will our citizens be any safer? Hurricanes Ivan, Katrina, 
and Rita showed us how vulnerable we are to natural disasters. 
Last week, we were grimly reminded that we still have a long 
way to go in finding answers to the lessons taught us by those 
hurricanes. Science, technology, and research hold many of 
these answers.
    Today, Admiral, I will be asking for your support and 
guidance on how we can better respond to these natural storms, 
be they hurricanes, tornadoes or what. Last week's storms 
claimed 20 lives from Alabama, Georgia, and Missouri. We cannot 
eliminate severe storms--we know that. But we should envision a 
day when we can live with them more safely.
    Overall, I'm concerned about the health of NOAA's science 
budget. Congress continually receives a budget request from the 
administration that downplays critical science activities when 
compared to the previous year's funding levels. The NOAA 2008 
request is less than what the agency received in 2007, 2006 and 
Madam Chairman, even 2005.
    In past years, the Joint Ocean Commission has clearly and 
objectively laid out the budgetary requirements to better 
support ocean-related science research and education. NOAA's 
budget request boasts a $123 million increase for ocean-related 
activities while the National Science Foundation requests to 
study marine ecosystems and associated human impacts, contains 
only a $17 million increase. These mighty figures represent 
only a fraction of the true budgetary needs for the marine 
community.
    I'm pleased to see that the American competitiveness 
initiative, ACI, has continued to receive support from the 
administration through the National Science Foundation's budget 
request. The ACI will keep the competitive edge that our Nation 
expects in the world economy through research and innovation by 
focusing on the ingenuity of our people and tying our 
capabilities to policies that will keep us at the forefront of 
scientific and technical advancement for generations to come. 
The ACI provides a tremendous opportunity to maintain our 
national technological advantage in a more competitive world.
    I think--I do not think that it goes far enough to take 
advantage of our existing Federal investments, however. The 
funding of ACI includes an increase of $366 million in the 
research and related activities account in NSF. While this 
benefits current research, I'm concerned about what we're doing 
to encourage the next generation of researchers. The long-term 
vision, Madam Chairman, I believe must include increasing 
opportunities for colleges and universities across the country 
to participate in innovation. Many of the funds provided to NSF 
as part of the ACI will go to traditional research schools that 
have historically fared well in retaining its research grants.
    We should find ways to raise the bar of competitiveness, to 
reach out to universities that have not traditionally been 
taken into consideration. We also need to provide the funds to 
increase the level of science education through better 
curriculum and inspiring K through 12 science teachers. NSF is 
the ideal place to begin such a long-term investment for this 
country.
    I'm also concerned about the number of American students 
enrolling in science and engineering fields of study. The most 
recent report from the Council on Competitiveness states that 
foreign students account for most of the growth in Ph.D.s in 
science and engineering, despite the progress being made by 
females and minorities in this area. Our lack of new scientists 
and engineers will eventually become a crisis. We're not 
attracting enough young students into these disciplines and are 
relying too heavily on foreign students. These same students 
return to their homeland where competitive jobs are becoming 
increasingly available.
    To remain at the cutting edge of innovation, I believe we 
need to act now in cultivating our next generation of engineers 
and scientists. There is much untapped potential within our own 
borders. We must make this a priority. The Office of Science 
and Technology Policy states that the goal of the ACI's goal is 
not to introduce entirely new Government programs but to 
increase fundamental research capacity and while there is 
significant Federal investment in research and innovation, 
there should be a much broader vision to include agencies 
beyond those already included in the ACI while not diluting 
current efforts.
    Along those lines, it is discouraging to see that the 
administration wants to see the Nation at the forefront of 
innovation yet chooses to exclude NOAA from the initiative. 
This is perplexing.
    NOAA stands out as an international leader in marine and 
atmospheric science and is a cornerstone of our Nation's 
research community. NOAA's education and outreach activities 
appear to fall directly in line with the ACI's educational 
goals. As I stated here in last week's Department of Commerce 
hearing, I'm concerned why this agency is not recognized as a 
candidate for the ACI program.
    At this point, I want to thank Chairman Mikulski for having 
this hearing today and I look forward to the testimony.
    Senator Mikulski. Thank you very much, Senator Shelby and 
as usual, I'm going to associate myself with your remarks. 
There are two key agencies that have, I believe, been left out 
of the ACI. Certainly NOAA, our flagship agency and on oceans, 
fisheries, and weather as well NASA. The fact that NASA was 
left out of ACI is absolutely stunning. There are two 
colleagues. I'd like to go right to the testimony rather than 
opening statements and you make them then when you get to the 
questions and answers. That way, we can move right along. Does 
that sound good?
    Therefore, let's go right to those who are ready to 
testify. Why don't we start with, Admiral Lautenbacher and go 
to the National Science Foundation?

       SUMMARY STATEMENT OF VICE ADMIRAL CONRAD LAUTENBACHER, JR.

    Admiral Lautenbacher. Madam Chair, Ranking Member Shelby, 
Senator Hutchison, Senator Reed, distinguished staff members, 
thank you very much for this opportunity to testify on behalf 
of the President's fiscal year 2008 budget request for NOAA and 
also thank you for your extremely important leadership in the 
areas that are under NOAA's responsibility. The support of this 
subcommittee has been extremely important to our ability to 
carry out the mission that is required for our country, so 
thank you very much for your continued support of our programs.
    Our programs and services impact one-third of U.S. gross 
domestic product. Our environmental information is vital to the 
competitiveness of our country in the world marketplace and to 
the security and safety of our people here at home. Our 
investments in research and technology contribute to our 
Nation's innovative culture and our work to conserve and manage 
coastal and marine resources ensures economic vitality and 
enhances U.S. trade.
    NOAA has had many notable accomplishments in 2006, some of 
which are mentioned in my written statement. I would like to 
take a moment to just highlight a couple of those before I move 
into the fiscal year 2008 budget request.
    Thanks to the funding from Congress, NOAA was able to 
provide a NOAA weather all-hazards radio to every public school 
in America. That's 97,000 radios. These radios provide 
automatic alerts for severe weather, manmade disasters such as 
chemical spills and terrorist threats as well as Amber Alerts 
for missing children. While tragedies will still occur as they 
did last week with the tornado mentioned by Senator Shelby, 
officials there did receive our warnings on their weather radio 
and actions were taken. Unfortunately, lives were still lost 
but many fewer were lost as a result of the warning and the 
radios and the procedures that were in effect.
    In June, the President designated the northwestern Hawaiian 
Islands as a marine national monument, the largest single act 
of marine conservation in history. Encompassing nearly 140,000 
square miles, the monument includes 4,500 square miles of 
relatively undisturbed coral reef habitat, home to more than 
7,000 species. For the first time, NOAA will play a leading 
role in managing a national monument. This is an exciting and 
important opportunity for NOAA.
    In December, NOAA achieved initial operating capability for 
the expanded U.S. tsunami warning system. This means that the 
most dangerous tsunami generation areas are covered by tsunami 
deepwater buoy stations and last April, the Nation's two 
tsunami warning centers became operational 24 by 7. This 
combination of buoys and around-the-clock warning capability 
has greatly increased the security of the Nation's people 
living along Pacific coastlines.
    Before I highlight the fiscal year 2008 budget request, I 
want to draw your attention to the fact that this year, NOAA is 
celebrating 200 years of science, service, and stewardship. In 
1807, President Thomas Jefferson founded the Survey of the 
Coast to provide nautical charts to the marine community. Safe 
passage of vessels to American ports and along our coastlines 
was critical to increasing trade and building the U.S. economy, 
just as it is today. The Survey of the Coast, along with the 
Weather Bureau founded in 1870, the U.S. Commission on Fish and 
Fisheries in 1871, were brought together in 1970 with the 
establishment of NOAA. We're very proud to be celebrating this 
200-year legacy with Americans across the Nation at events 
throughout the year.
    My written testimony presents the details of the budget as 
it aligns with five priority areas. First of all, sustaining 
critical operations, supporting the U.S. ocean action plan, 
improving weather warnings and forecasts, climate monitoring 
and research, and critical facilities investments. I will just 
highlight a couple of those.

           <greek-l>NOAA deg.FISCAL YEAR 2008 BUDGET REQUEST

    The fiscal year 2008 request, as already stated, is $3.8 
billion. That does represent a $131 million or 3.4 percent 
increase over the President's request from fiscal year 2007 but 
it does represent a $96 million decrease from the fiscal year 
2006 enacted level.
    The budget is able to provide modest new investments in our 
priority areas while maintaining critical services. In critical 
operations, we are providing an increase of $10.1 million for 
operations and maintenance of NOAA vessels and aircraft. NOAA 
is also driving innovation in research and monitoring by 
requesting $3 million in funding to support the further use of 
unmanned aircraft systems or UAS. With this funding, NOAA will 
evaluate the benefits and potential of using UAS to collect 
data crucial for such missions as fishery enforcement, coastal 
zone studies, and hurricane forecasting.
    Continued implementation of the President's ocean action 
plan remains a priority. The fiscal year 2008 budget requests 
$123 million in increase to support the plan, including $60 
million to advance ocean science and research, $38 million to 
protect and restore marine and coastal areas, and $25 million 
to ensure sustainable use of ocean resources.
    Specifically, the request includes $16.4 million for the 
integrated ocean observing system or IOOS for development of 
regional systems and improved data management and 
communications. It also includes $8 million for enforcement and 
management activities in the newly designated Northwestern 
Hawaiian Islands Marine National Monument.
    Funding of $10 million is requested to restore nearly 1,000 
miles of habitat for endangered Atlantic salmon and other fish 
species in New England's largest watershed. Increased funding 
of $3 million will support Klamath River salmon recovery 
projects.
    The fiscal year 2008 budget also provides $20 million in 
increases to support better management of fish harvests. This 
includes $6.5 million in increases to implement the new and 
expanded requirements of the Magnuson-Stevens Fishery 
Conservation and Management Reauthorization Act, passed last 
season. It provides $3 million to establish the regulatory 
framework to facilitate environmentally sustainable commercial 
aquaculture. Our Nation currently has an $8 billion trade 
deficit in seafood. Providing regulatory certainty will foster 
private sector investment in offshore aquaculture, increasing 
the Nation's competitiveness in the world seafood market and 
decreasing our reliance on imported seafood.
    To improve weather warnings and forecasts, we are 
requesting a $5 million increase for the support of operation 
and maintenance of hurricane data buoys and research on 
hurricane intensity that will ultimately save lives. More than 
$23 million is requested to continue strengthening the U.S. 
tsunami warning program, including an increase of $1.7 million 
to deploy additional deep ocean buoy stations.
    Climate monitoring and research includes a $9.4 million 
increase to support the development of an integrated drought 
early warning and forecast system that will also enhance the 
Nation's food security by providing earlier and more accurate 
drought forecasts. More than one-half of this increase will be 
used to research the link between ocean currents and abrupt 
climate change.
    Finally, critical facilities investments include an 
increase of $20 million for the Pacific Regional Center in 
Hawaii, which will bring NOAA's Pacific Island programs 
together in one facility to improve operations and strengthen 
our performance.
    Let me conclude briefly by talking about two oversight 
issues important to the subcommittee and extremely important to 
NOAA. There have been many challenges with our satellite 
programs and the national polar-orbiting operational 
environmental satellite system (NPOESS) in particular. Let me 
assure the subcommittee that I and my staff are doing 
everything we can do to ensure that this program stays on 
track. We have made numerous personnel and organizational 
changes. We are implementing every recommendation from the 
Government Accountability Office (GAO) and Department of 
Commerce inspector general and I meet with the Under Secretary 
of the Air Force and NASA Administrator once a quarter at 
least, to review the program in detail, along with the 
presidents of the companies who have signed the contract to 
develop those satellites. Satellites are complex and risky 
tools but they are vital to all aspects of NOAA's mission. I 
also want to assure the subcommittee that the Department of 
Commerce is in the final stages of updating its communication 
policy, which will ensure for generations into the future that 
our scientists are able to freely and openly communicate their 
science to the media and the public. I have been on the record 
with my scientists numerous times supporting their ability to 
communicate freely their science activities to the public.

                           PREPARED STATEMENT

    Again, I appreciate the opportunity to testify and I am 
happy to answer any of your questions. Thank you.
    [The statement follows:]
      Prepared Statement of Vice Admiral Conrad Lautenbacher, Jr.
    Madam Chairwoman and members of the subcommittee, before I begin my 
testimony I would like to thank you for your leadership and the 
generous support you have shown the National Oceanic and Atmospheric 
Administration (NOAA). Your continued support for our programs is 
appreciated as we work to improve our products and services for the 
American people. Thank you for the opportunity to testify on the 
President's fiscal year 2008 budget request for NOAA.
    The fiscal year 2008 President's budget supports NOAA's priority to 
advance mission-critical services. The fiscal year 2008 request is 
$3.815 billion, which represents a $131 million or 3.4 percent increase 
over the fiscal year 2007 request. This request includes the level of 
resources necessary to carry out NOAA's mission, which is to understand 
and predict changes in the Earth's environment, and conserve and manage 
coastal and marine resources to meet our Nation's economic, social and 
environmental needs. At NOAA we work to protect the lives and 
livelihoods of Americans, and provide products and services that 
benefit the economy, environment, and public safety of the Nation. 
Before I discuss the details of our fiscal year 2008 budget request, I 
would like to briefly highlight some of NOAA's notable successes from 
the past fiscal year (2006).
                    fiscal year 2006 accomplishments
President Designates Largest Fully-Protected Marine Area on Earth
    Recognizing the continuing need for resource protection, President 
Bush designated the Northwestern Hawaiian Islands as a marine national 
monument on June 15, 2006. Encompassing nearly 140,000 square miles, 
the monument covers an area larger than all of our national parks put 
together, including 4,500 square miles of relatively undisturbed coral 
reef habitat that is home to more than 7,000 species. The creation of 
the largest fully-protected marine area in the world is an exciting 
achievement and recognizes the value of marine resources to our Nation.
Successful Launch of NOAA Satellite GOES-13 and New Satellite 
        Operations Facility Ensure Continuity of Improved Data 
        Collection
    On May 24, 2006, officials from NOAA and the National Aeronautics 
and Space Administration (NASA) confirmed that a new geostationary 
operational environmental satellite, designed to track hurricanes and 
other severe weather impacting the Nation, successfully reached orbit. 
Upon reaching final orbit, the satellite was renamed GOES-13. This is 
the first in a new series of satellites featuring a more stable 
platform enabling improved instrument performance. NOAA instruments 
were also launched on the European MetOp-A polar-orbiting satellite in 
October 2006. Combined with NOAA and Department of Defense (DOD) 
operational satellites, MetOp-A will help provide global data for 
improving forecasts of severe weather, disaster mitigation, and 
monitoring of the environment. This launch ushered in a new era of 
U.S.-European cooperation in environmental observing.
    In 2006, NOAA satellite operations and data processing groups began 
moving into the new NOAA Satellite Operations Facility (NSOF). The NSOF 
will house the NOAA satellite command and control functions and data 
and distribution activities that are central to NOAA's mission. The 
NSOF will also house the U.S. Mission Control Center for the Search and 
Rescue Satellite-Aided Tracking (SARSAT) program and the National Ice 
Center (NIC), a joint NOAA/DOD mission to track ice floes and issue 
warnings to the Nation's maritime force. The NSOF will become fully 
operational in Spring 2007.
Enhancements to NOAA's Fleet of Ships and Aircraft
    Significant progress is being made in modernizing NOAA's fleet. 
NOAA took delivery of the Fisheries Survey Vessel (FSV) Henry B. 
Bigelow, the second of 4 new FSV, on July 25, 2006. The Bigelow has 
high-tech capabilities that make it one of the world's most advanced 
fisheries research ships. These ships will be able to perform hydro-
acoustic fish surveys and conduct bottom and mid-water trawls while 
running physical and biological oceanographic sampling during a single 
deployment--a combined capability unavailable in the private sector 
that will enable research and assessment to be carried out with greater 
accuracy and cost efficiency. NOAA also took delivery from the Navy of 
a ``retired'' P-3 aircraft in response to the hurricane supplemental 
bill attached to the fiscal year 2006 Defense appropriations 
legislation. Rehabilitation of the P-3 is expected to be completed by 
the start of the 2008 hurricane season.
Magnuson-Stevens Fishery Conservation and Management Act Reauthorized
    Congress reauthorized the Magnuson-Stevens Fishery Conservation and 
Management Act (MSA) in December, 2006, and it was signed into law by 
President Bush on January 12, 2007. The MSA is the guiding legislation 
that authorizes fishery management activities in federal waters. 
Enactment of this bill was one of the top priorities of the U.S. Ocean 
Action Plan. The reauthorized MSA strengthens NOAA's ability to end 
overfishing, rebuild fish stocks, and work collaboratively on 
conservation.
U.S. Tsunami Warning System Improved
    NOAA designed easy to deploy Deep-ocean Assessment and Reporting of 
Tsunamis (DART)-II technology, which provides two-way communication 
between the buoys and NOAA facilities. This technology allows engineers 
to troubleshoot these systems from the lab and repair the systems 
remotely when possible. This functionality can minimize system downtime 
and save money by not requiring a ship be deployed to make minor 
repairs. The U.S. Tsunami Warning Program also created tsunami impact 
forecast models for nine major coastal communities, providing 
information for inundation maps. With the December 11, 2006 deployment 
of DART #23 in the Western Pacific Ocean, NOAA achieved initial 
operating capability (IOC) of the planned expanded U.S. Tsunami Warning 
Program. NOAA also achieved full 24/7 operations of the Nation's two 
Tsunami Warning Centers. Plans call for the U.S. Tsunami Warning 
Network to total 39 DART-II buoy stations by mid-summer 2008 (32 in the 
Pacific, 7 in the Atlantic).
    NOAA also continued to monitor sea height through a network of 
buoys and tide gauges, collecting information critical to understanding 
the time of arrival and the height of tsunami waves. In 2006, NOAA 
completed the installation of eight new National Water Level 
Observation Network (NWLON) stations to fill gaps in the detection 
network, bringing the 2-year total to 15. The 15 stations were 
installed in California, Oregon, Washington, Alaska, Puerto Rico, and 
the Virgin Islands. These and other new stations brought the NWLON to 
200 stations by the end of calendar year 2006. In addition, NOAA 
continued to upgrade the entire NWLON to real-time status by replacing 
over 50 data collection platforms.
Red Tide Monitoring Protects Human Health and Coastal Economics in New 
        England
    In the wake of the 2005 New England red tide crisis that forced the 
closure of most shellfisheries in the region, NOAA provided additional 
emergency funding in 2006 to provide timely and critical information to 
State managers to build upon long-term research supported by the 
Ecology and Oceanography of Harmful Algal Bloom, and Monitoring and 
Event Response for Harmful Algal Bloom programs at the Woods Hole 
Oceanographic Institution, as well as other partner institutions. In 
the spring of 2006, NOAA-sponsored monitoring detected rapid 
escalations of the bloom, which subsequently closed shellfisheries in 
Massachusetts, New Hampshire and Maine. Additional NOAA efforts allowed 
New England managers to make more strategic sampling and shellfish bed 
closures/openings to protect human health and minimize the economic 
impacts of harmful algal blooms.
National Estuarine Research Reserve System Adds 27th Reserve
    On May 6, 2006, commerce and congressional officials dedicated the 
newest site in the National Estuarine Research Reserve System in Port 
Aransas, Texas, bring the total to 27 reserves. This new reserve 
introduces a new biogeographic area type into the system, and adds 
185,708 acres of public and private land and water. The reserves are 
Federal-State partnerships, where NOAA provides national program 
guidance and operational funding. These reserves serve as living 
laboratories for scientists and provide science-based educational 
programs for students and the public.
Wide Application Potential of Unmanned Aircraft Systems Demonstrated
    In 2006, NOAA worked with federal and private sector partners to 
successfully demonstrate Unmanned Aircraft Systems (UAS) technology. 
NOAA is interested in UAS as a tool to explore and gather data to help 
us reach new heights in our ability to understand and predict the world 
in which we live. Use of UAS could help NOAA achieve our mission goals 
and provide cost-effective means to: enforce regulations over NOAA's 
National Marine Sanctuaries, conduct long endurance flights for 
weather, conduct research over areas that pose significant risks to 
pilots, validate satellite measurements, provide counts of marine 
mammal populations, monitor atmospheric composition and climate, and 
hover above hurricanes and gather critical data for input into 
hurricane models. NOAA will continue to examine how UAS can assist in 
the collection of environmental data.
Protecting Habitat Essential to Fish
    In 2006, over 500,000 square miles of U.S. Pacific Ocean habitats 
were protected from damage by fishing practices, particularly bottom-
trawling. Combined, these areas are more than three times the size of 
all U.S. national parks. The historic protections, implemented by NOAA 
with the support and advice of the regional fishery management 
councils, fishing industry, and environmental groups, made the 
protection of essential fish habitat and deep coral and sponge 
assemblages a significant part of management efforts to conserve 
fisheries in the Pacific Ocean.
NOAA Continues Efforts to Assist with Gulf Coast Recovery Following 
        2005 Hurricanes Katrina and Rita
    In addition to providing the forecasts and immediate response 
assistance in 2005, following Hurricanes Katrina and Rita, NOAA has 
continued to assist with Gulf Coast recovery efforts in fiscal year 
2006.
    NOAA ships and aircraft provided critical response and recovery 
capabilities in the aftermath of Hurricanes Katrina and Rita. NOAA Ship 
Thomas Jefferson completed obstruction surveys in the Gulf of Mexico so 
that busy ports and shipping lanes could be re-opened to traffic. 
NOAA's citation aircraft flew post-storm damage assessment surveys 
along the coasts of the Gulf States. This imagery was downloaded on the 
NOAA website, enabling emergency managers, local officials and average 
citizens to inventory damage and prioritize recovery efforts.
    NOAA mounted a multi-pronged effort to address fishery-related 
impacts in the Gulf of Mexico in fiscal year 2006. In August, 2006, 
NOAA awarded $128 million to the Gulf States Marine Fisheries 
Commission to reseed and restore oyster beds and conduct fisheries 
monitoring in the Gulf. In addition, NOAA Ship Nancy Foster conducted a 
seafood contamination survey for NOAA Fisheries near the Mississippi 
Delta to spot potential safety issues. This research monitored the 
seafood coming in from the Gulf to ensure it was safe for public 
consumption (free of PCBs, pesticides, and fossil fuels).
Collaboration Enables a NOAA Weather Radio to be Placed In Every Public 
        School in America
    NOAA and the Departments of Homeland Security and Education worked 
to get 97,000 NOAA weather radios placed in every public school in 
America to aid in protecting our children from hazards, both natural 
and man-made. In many cases, local weather forecast office staff 
provided expertise in programming the radios to select specific hazards 
and geographic areas for which the school wanted to be alerted. This 
multi-month effort required close collaboration between the Departments 
of Homeland Security, Education, and Commerce (NOAA). This effort 
enabled schools to connect to part of the Nation's Emergency Alert 
System and greatly increases environmental situational awareness and 
public safety.
World Ocean Database 2005
    NOAA's National Oceanographic Data Center (NODC) released a major 
upgrade to its World Ocean Database product. World Ocean Database 2005 
(WOD05) is the largest collection of quality-controlled ocean profile 
data available internationally without restriction. All data are 
available on-line for public use. Data are available for 29 ocean 
variables, including plankton data. The database includes an additional 
900,000 temperature profiles not available in its predecessor. The 
database provides the ocean and climate science communities with 
research-quality ocean profile data sets that will be useful in 
describing physical, chemical and biological parameters in the ocean, 
over both time and space. This database is a crucial part of the 
Integrated Ocean Observing System and the Global Earth Observation 
System of Systems.
New Arctic Observatory Established for Long-Term Climate Measurements
    NOAA's Earth System Research Laboratory in Boulder, Colorado, in 
conjunction with our Canadian counterparts, established a research site 
located on Ellesmere Island to make long-term climate measurements of 
Arctic clouds and aerosols. This observatory supports NOAA's activities 
for the 2007-2008 International Polar Year.
NOAA Scientists Identify Carbon Dioxide Threats to Marine Life
    A report co-authored by NOAA research scientists documents how 
carbon dioxide is dramatically altering ocean chemistry and threatening 
the health of marine organisms. The research also uncovered new 
evidence of ocean acidification in the North Pacific. The report 
resulted from a workshop sponsored by NOAA, the National Science 
Foundation, and the U.S. Geological Survey.
First Operational Satellite Products for Ocean Biology
    In June, 2006, NOAA began to process and distribute ocean biology 
products for U.S. coastal waters, using satellite observations. This 
activity represents a successful transition of NASA research to NOAA 
operations. These products (e.g. chlorophyll concentration) represent 
the first satellite-derived biological products generated by NOAA for 
coastal and open ocean waters. These products are useful in detecting 
and monitoring harmful algal blooms, assessing regional water quality, 
and locating suitable habitat for fish and other important marine 
species. Development of these products prepares NOAA for generating and 
distributing ocean biology products in the global ocean after 2010.
               fiscal year 2008 budget request highlights
Supporting the U.S. Ocean Action Plan
    Coastal and marine waters help support over 28 million jobs, and 
the value of the ocean economy to the United States is over $115 
billion. The commercial and recreational fishing industries alone add 
over $48 billion to the national economy each year. The fiscal year 
2008 President's budget requests $123 million in increases for NOAA to 
support the President's U.S. Ocean Action Plan. This oceans initiative 
includes $38 million to protect and restore marine and coastal areas, 
$25 million to ensure sustainable use of ocean resources, and $60 
million to advance ocean science and research.
    New investments in ocean science are aimed at monitoring and better 
understanding marine ecosystems. Increased funding of $16 million is 
included for the Integrated Ocean Observing System to enhance models 
and information products through development of regional systems and 
improved data management and communications. A total increase of $20 
million is provided for NOAA research on four near-term priorities 
established through the national Ocean Research Priorities Plan. An 
additional $8 million will support exploring and defining areas of the 
continental shelf that are adjacent to, but currently outside of, U.S. 
jurisdiction. This work will enable a U.S. claim to these areas and the 
potential $1.2 trillion worth of resources they are estimated to 
contain.
    The fiscal year 2008 President's budget builds on NOAA's strong 
record of investing in projects that embody the spirit of cooperative 
conservation. Projects to protect and restore valuable marine and 
coastal areas include funding of $8 million for enforcement and 
management activities in the recently designated Northwestern Hawaiian 
Islands Marine National Monument, and $10 million for a project to 
restore nearly 1,000 stream miles of habitat for endangered Atlantic 
salmon and other fish species. A total of $15 million is provided for 
the Coastal and Estuarine Land Conservation Program, to assist State 
and local partners in the purchase of high priority coastal or 
estuarine lands or conservation easements. Increased funding of $3 
million is also included to support Klamath River salmon recovery 
projects. Finally, an increase of $5 million will support competitive 
grant programs focused on the Gulf of Mexico Alliance coastal resource 
priorities, as identified in the Governors' Action Plan for Healthy and 
Resilient Coasts.
    Finally, the fiscal year 2008 NOAA budget provides support to 
ensure sustainable access to seafood through development of offshore 
aquaculture and better management of fish harvests. The administration 
will propose legislation to establish clear regulatory authority and 
permitting processes for offshore aquaculture. An increase of $3 
million is included to establish the regulatory framework to encourage 
and facilitate development of environmentally sustainable commercial 
opportunities. In addition, $20 million in increases are provided to 
improve management of fish harvests, including $6.5 million in 
increases to implement the new and expanded requirements of the 
Magnuson-Stevens Fishery Conservation and Management Reauthorization 
Act of 2006, $3 million for observer programs, and $6 million for 
market-based approaches to fisheries management. Market-based 
approaches--such as Limited Access Privilege Programs (LAPPs) that 
provide exclusive privileges to harvest a quantity of fish--move 
fisheries management away from cumbersome and inefficient regulatory 
practices and have been shown to lead to lengthened fishing seasons, 
improved product quality, and safer conditions for fishermen. The 
administration has set a goal of doubling the number of LAPPs in use by 
the year 2010, and the increased funding of $6 million for LAPPs in 
this request supports that goal. Finally, an additional $2 million in 
funding is provided to meet the management challenges of assessing and 
mitigating the impacts of sound from human activities, such as national 
defense readiness and energy exploration and development, on marine 
mammals.
Sustaining Critical Operations
    As always, I support NOAA's employees by requesting adequate 
funding for our people, infrastructure, and facilities. NOAA's core 
values are science, service, and stewardship, as well as people, 
ingenuity, integrity, excellence, and teamwork. Our ability to serve 
the Nation and accomplish the missions outlined below is determined by 
the quality of our people and the tools they employ. Our facilities, 
ships, aircraft, environmental satellites, data-processing systems, 
computing and communications systems, and our approach to management 
provide the foundation of support for all of our programs. 
Approximately $54.6 million in net increases will support our workforce 
inflation factors, including $44.9 million for salaries and benefits 
and $6.6 million for non-labor related adjustments such as fuel costs.
    This year, we focus on the operations and maintenance of NOAA 
vessels and necessary enhancements to marine safety, facility repair, 
and modernization. A funding increase of $8.3 million will be used to 
support marine operations and equipment, including $5.6 million for new 
vessel operations and maintenance and $1.7 million to implement a more 
effective maritime staff rotation and safety enhancements. This funding 
will support the operations maintenance for the Okeanos Explorer, 
NOAA's first dedicated ocean exploration vessel. Increased funding of 
$5.5 million will support operations and maintenance for NOAA's third 
P-3 aircraft. NOAA is also moving forward this year with increases in 
funding for unmanned vehicles, with $0.7 million in support of 
Autonomous Underwater Vehicles (AUV) and an increase of $3 million in 
funding to support the further use of Unmanned Aircraft Systems (UAS). 
With this increase, NOAA will evaluate the benefits and potential of 
using UAS to collect data crucial for climate models, weather research, 
fisheries enforcement, and coastal zone studies.
    The backbone of the NOAA infrastructure is our integrated Earth 
observation effort. NOAA, NASA and the Office of Science and Technology 
Policy (OSTP) serve as the lead agencies for the Federal Government in 
developing our U.S. integrated Earth observing strategy. In addition, I 
serve as one of four intergovernmental co-chairs of the effort to 
develop the Global Earth Observation System of Systems. Building and 
maintaining state of the art satellite programs is an important 
component of NOAA's integrated observation efforts. An increase of $25 
million in the Polar Operational Environmental Satellite (POES) program 
continues support for development and acquisition of polar-orbiting 
weather satellites to improve weather forecasting and our understanding 
of the climate. This increase will allow NOAA to complete acquisition 
of this series of polar satellites and install and maintain instruments 
important to U.S. Government interests on the European MetOp partner 
satellite. Following the completion of the POES program, it will be 
replaced by the tri-agency National Polar-orbiting Operational 
Environmental Satellite System (NPOESS). This transition is expected in 
2013. We will continue to partner with the Europeans on their MetOp 
satellite as NPOESS replaces our current POES satellites.
Improving Weather Warnings and Forecasts
    Severe weather events cause $11 billion in damages and 
approximately 7,000 weather-related fatalities yearly in the United 
States. Nearly one-third of the economy is sensitive to weather and 
climate. Realizing this, NOAA seeks to provide decisionmakers with key 
observations, analyses, predictions, and warnings for a variety of 
weather and water conditions to help protect the health, lives, and 
property of the United States and enhance its economy. Increased 
funding of $2 million will accelerate research to improve hurricane 
intensity forecasts through targeted research for new models and 
observations. Another $3 million will support the operations and 
maintenance of 15 hurricane data buoys in the Caribbean, Gulf of 
Mexico, and the Atlantic Ocean. Finally, NOAA continues to strengthen 
the U.S. Tsunami Warning Program with an increase of $1.7 million to 
deploy additional deep ocean buoy (DART) stations. Strengthening the 
U.S. Tsunami Warning Program provides effective, community-based 
tsunami hazard mitigation actions including required inundation flood 
mapping, modeling, forecasting efforts and evacuation mapping, and 
community-based public education/awareness/preparedness for all U.S. 
communities at risk.
Climate Monitoring and Research
    Society exists in a highly variable climate system, and major 
climatic events can impose serious consequences on society. The fiscal 
year 2008 budget request contains investments in several programs aimed 
at increasing our predictive capability, enabling NOAA to provide our 
customers (farmers, utilities, land managers, weather risk industry, 
fisheries resource managers and decisionmakers) with assessments of 
current and future impacts of climate events such as droughts, floods, 
and trends in extreme climate events. NOAA is building a suite of 
information, products and services to enable society to understand, 
predict, and respond to changing climate conditions. These activities 
are part of the U.S. Climate Change Science Program and are being 
conducted in collaboration and coordination with our important 
interagency partners including NASA, NSF, and the Department of Energy. 
We will continue to expand and improve access to global oceanic and 
atmospheric data sets for improved climate prediction and development 
of climate change indicators. NOAA will support the critical National 
Integrated Drought Information System with increases of $4.4 million to 
develop an integrated drought early warning and forecast system to 
provide earlier and more accurate forecasts of drought conditions. This 
request also supports the administration's efforts to create a U.S. 
Integrated Earth Observation System. With an increase of $0.9 million, 
we will support research on water vapor to refine climate models. In 
support of the Ocean Research Priorities Plan, NOAA will enhance our 
understanding of the link between ocean currents and rapid climate 
change with an increase of $5 million in support of research on this 
topic. Finally, an additional $1 million in funding will provide 
additional computational support for assessing abrupt climate change.
Critical Facilities Investments
    The fiscal year 2008 President's budget request also includes 
important increases for critical facilities, necessary to provide a 
safe and effective working environment for NOAA's employees.
    Of particular importance this year is the $3 million funding 
increase to begin design of a replacement facility at the La Jolla 
Southwest Fisheries Science Center. NOAA is also requesting $20.3 
million for continued construction of the new Pacific Region Center on 
Ford Island in Honolulu, Hawaii. This increase in funding will allow 
NOAA to complete the exterior renovation of one of the Ford Island 
buildings, a crucial next step in the construction process.
                               conclusion
    NOAA's fiscal year 2008 budget request provides essential new 
investments in our priority areas while maintaining critical services, 
reflecting NOAA's vision, mission, and core values. The work NOAA 
accomplished in 2006 impacted every U.S. citizen. We will build on our 
successes from last year, and stand ready to meet the challenges that 
will surface in fiscal year 2008 and beyond. NOAA is dedicated to 
enhancing economic security and national safety through research and 
accurate prediction of weather and climate-related events, and to 
providing environmental stewardship of our Nation's coastal and marine 
resources. That concludes my statement, Madam Chairwoman. Thank you for 
the opportunity to present NOAA's fiscal year 2008 budget request. I am 
happy to respond to any questions the committee may have.

                      NATIONAL SCIENCE FOUNDATION

STATEMENT OF DR. ARDEN BEMENT, JR., DIRECTOR
    Senator Mikulski. Dr. Bement.
    Dr. Bement. Yes, thank you, Chairman Mikulski, Senator 
Shelby, Senator Hutchison, and Senator Reed. I am pleased to 
present the National Science Foundation's (NSF) budget for the 
next fiscal year. Before I begin, however, I must express my 
heartfelt appreciation for your support of NSF's research 
budget in the fiscal year 2007 continuing resolution.
    The President's request for NSF is $6.43 billion for fiscal 
year 2008. This represents a $513 million or 8.7 percent 
increase over the continuing resolution. Funding at this level 
will keep NSF on a course set by the President's American 
competitiveness initiative to drive innovation and sharpen 
America's competitive edge.
    Let me just quickly highlight some of the activities we are 
emphasizing in the new budget. As the lead agency supporting 
polar research, NSF will invest $59 million for international 
polar year (IPY) activities. Climate change research and 
environmental observations will be a major focus of 
investigation. The outlines of environmental change from sea 
ice extent and retreating glaciers to shifting patterns in 
flora and fauna are already visible in the polar regions, with 
implications for the rest of the globe. Another research effort 
will be to explore how life adapts to and survives in the polar 
extremes. Other major thrusts during IPY will be education and 
outreach activities.
    The budget includes an important new NSF-wide investment of 
$52 million to develop a next generation of computationally 
based discovery concepts and tools to deal with complex, data 
rich, and interacting systems. Cyber-enabled discovery and 
innovation aims to explore radically new concepts, approaches 
and tools at the intersection of computational and physical or 
biological worlds to address such challenges.
    Understanding how human activity interacts with the oceans 
can help ensure that the world's oceans remain clean, healthy, 
productive, and stable. NSF will invest $17 million in four 
research areas identified in the ocean research priorities plan 
as critical near-term priorities, the complex dynamics that 
control and regulate marine ecosystem processes, variability of 
Atlantic Ocean currents, the response of coastal ecosystems to 
a variety of natural events and human influence processes and 
the development of new sensors for marine ecosystems.
    Our request also includes $390 million for nano-technology 
research. NSF's investment in the interagency national nano-
technology initiative will increase by nearly $17 million. We 
will increase our multidisciplinary and interagency regulatory 
support efforts that address the environmental health and 
safety impacts of nano materials by exploring how nano 
particles and materials interact with the living world at all 
scales.
    NSF will increase support by $8 million for the 
experimental program to stimulate competitive research 
(EPSCoR). EPSCoR investments provide strategic programs and 
opportunities for participants in States that have historically 
received less Federal R&D funding to make sustainable 
improvements in research capacity and national research 
competitiveness.
    We moved EPSCoR to the Office of the Director in order to 
focus on the research potential and capacity of these States 
and to integrate this activity across NSF.
    Creating a strong science and engineering workforce for the 
future is vital to maintaining the Nation's competitive edge. 
NSF will continue to fund a broad portfolio of successful 
programs that contribute to this goal: CAREER, aimed at junior 
faculty, advanced technological education aimed at 2 year 
colleges, Noyce Scholarships for promoting the development of a 
world-class math and science teaching corp and programs which 
aim to broaden participation of underrepresented groups and 
engage a broader spectrum of institutions such as the STEM 
Talent Expansion Program and Centers for Research Excellence in 
Science and Technology.
    We will fund an additional 200 graduate research 
fellowships, increasing the total number of students supported 
to nearly 3,000.
    In coordination with the Department of Education, NSF will 
continue funding for the highly successful Math and Science 
Partnership Program aimed at improving K to 12 science and math 
education and teaching. In addition to supporting ongoing 
awards, approximately $30 million will be available for new 
awards in fiscal year 2008.
    Scientists, engineers, and students need world-class 
instruments with the best capabilities, the farthest reach, and 
the finest accuracy. NSF proposes an investment of $32.75 
million to initiate advanced LIGO, a gravitational wave 
observatory that will improve detection rates by a factor of 
1,000 over current Earth-based facilities. Observations made 
with this instrument could revolutionize our understanding of 
the universe.
    The development of a petascale computing capability and 
world-class cyber-infrastructure will continue to be a high 
priority. These investments will significantly augment 
computational and networking capabilities available to 
scientists and engineers in all disciplines.
    The Foundation strategy for research and education must be 
to keep all fields and disciplines of science and engineering 
healthy and strong. At the same time, we must be constantly 
alert to research that has the potential to transform the 
world. This is the kind of research that can overturn accepted 
paradigms and open entirely new fields for exploration.
    The National Science Foundation looks to the future with 
these important considerations in mind and we have crafted our 
fiscal year 2008 budget to address them.

                           PREPARED STATEMENT

    Madam Chairman, thank you for the opportunity to present a 
brief overview of our request and I look forward to any 
questions you may have.
    [The statement follows:]
             Prepared Statement of Dr. Arden L. Bement, Jr.
    Chairman Mikulski, Senator Shelby, and members of the committee, I 
am pleased to present the National Science Foundation's budget for the 
next fiscal year. Before I begin, I must express my heartfelt 
appreciation for your support of NSF's research budget in the Fiscal 
Year 2007 Continuing Resolution.
    The President's request for NSF is $6.43 billion for fiscal year 
2008. This represents a $513 million or 8.7 percent increase over the 
continuing resolution. Funding at this level will keep NSF on the 
course set by the President's American Competitiveness Initiative to 
drive innovation and sharpen America's competitive edge.
    Let me just quickly highlight some of the activities we are 
emphasizing in the new budget. As the lead agency supporting polar 
research, NSF will invest $59 million for International Polar Year 
activities. Climate change research and environmental observations will 
be a major focus of investigation. The outlines of environmental 
change, from sea ice extent and retreating glaciers, to shifting 
patterns in flora and fauna, are already visible in the polar regions, 
with implications for the rest of the globe. Another research effort 
will be to explore how life adapts to and survives in the polar 
extremes. Other major thrusts during IPY will be in education and 
outreach activities.
    The budget includes an important new NSF-wide investment of $52 
million to develop a new generation of computationally based discovery 
concepts and tools to deal with complex, data-rich, and interacting 
systems. Cyber-enabled Discovery and Innovation aims to explore 
radically new concepts, approaches, and tools at the intersection of 
computational and physical or biological worlds to address such 
challenges.
    Understanding how human activity interacts with the oceans can help 
ensure that the world's oceans remain clean, healthy, productive, and 
stable. NSF will invest $17 million in four research areas identified 
in the Ocean Research Priorities Plan as critical near-term priorities: 
the complex dynamics that control and regulate marine ecosystem 
processes; variability of Atlantic Ocean currents; the response of 
coastal ecosystems to a variety of natural events and human influenced 
processes; and the development of new sensors for marine ecosystems.
    Our request also includes $390 million for nanotechnology research. 
NSF's investment in the interagency National Nanotechnology Initiative 
will increase by nearly $17 million. We will increase our 
multidisciplinary and interagency regulatory support efforts that 
address the environmental, health, and safety impacts of nanomaterials 
by exploring how nano particles and materials interact with the living 
world at all scales.
    NSF will increase support by $8 million for the Experimental 
Program to Stimulate Competitive Research (EPSCoR). EPSCoR investments 
provide strategic programs and opportunities for participants--
jurisdictions and States that have historically received less Federal 
R&D funding--to make sustainable improvements in research capacity and 
national research competitiveness. We moved EPSCoR to the Office of the 
Director in order to focus on the research potential and capacity of 
these States and to integrate this activity across NSF.
    Creating a strong science and engineering workforce for the future 
is vital to maintaining the Nation's competitive edge. NSF will 
continue to fund a broad portfolio of successful programs that 
contribute to this goal: CAREER, aimed at junior faculty; Advanced 
Technological Education, aimed at 2-year colleges; Noyce Scholarships, 
for promoting the development of a world-class math and science 
teaching corps; and programs which aim to broaden participation of 
underrepresented groups and engage a broader spectrum of institutions, 
such as the STEM Talent Expansion Program and Centers for Research 
Excellence in Science and Technology. We will fund an additional 200 
Graduate Research Fellowships, increasing the total number of students 
supported to nearly 3,000.
    In coordination with the Department of Education, NSF will continue 
funding for the highly successful Math and Science Partnership program, 
aimed at improving K-12 science and math education and teaching. In 
addition to supporting ongoing awards, approximately $30 million will 
be available for new awards in fiscal year 2008.
    Scientists, engineers, and students need world-class instruments 
with the best capabilities, the farthest reach, and the finest 
accuracy. NSF proposes an investment of $32.75 million to initiate 
Advanced LIGO, a gravitational wave observatory that will improve 
detection rates by a factor of 1,000 over current earth-based 
facilities. Observations made with this instrument could revolutionize 
our understanding of the universe.
    The development of a petascale computing capability and world-class 
cyber-infrastructure will continue to be a high priority. These 
investments will significantly augment computational and networking 
capabilities available to scientists and engineers in all disciplines.
    The foundation's strategy for research and education must be to 
keep all fields and disciplines of science and engineering healthy and 
strong. At the same time, we must be constantly alert to research that 
has the potential to transform the world. This is the kind of research 
that can overturn accepted paradigms and open entirely new fields for 
exploration. The National Science Foundation looks to the future with 
these important considerations in mind, and we have crafted our fiscal 
year 2008 budget to address them.
    Madam Chairman, thank you for the opportunity to present a brief 
overview of our request. I look forward any questions you might have.

   <greek-l>NOAA deg.NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION 
                        TSUNAMI WARNING PROGRAM

    Senator Mikulski. Thank you very much for your excellent 
testimony. I'm going to get right to a couple of the questions 
that I know are pressing in my mind and one is the whole idea--
I know of the--kind of the mantra, if you will, of NOAA, saving 
lives and saving livelihoods. I just want to note the early 
part of your testimony about early warning for weather. The 
school alerts. Admiral, I think this is an example of what NOAA 
develops, works with the private sector then with the larger 
public sector, truly that develops products, creates jobs, and 
saves lives and saves livelihoods.
    My question then to you is, I'd like to go right to weather 
warning systems. In this year's budget, you have a set of 
requests for ensuring the tsunami warning system. We all note 
when the terrible tsunami hit Indonesia and other parts of the 
Pacific, the world was alarmed and wondered what it would mean 
to Hawaii, to other places in the Pacific rim. Could you tell 
us the status of where you are on the tsunami warning and could 
you also tell us where we are in terms of having enough 
resources to implement that because this Pacific is pretty big 
and what about, also the east coast?

                <greek-l>NOAA deg.TSUNAMI WARNING SYSTEM

    Admiral Lautenbacher. Yes, thank you. I'd be happy to. 
First of all, it's a result of the request that we turned in, 
the strong support of Congress to provide the money and the 
authorization for us to do this work. We have right now in 
place 25 deep-water buoys that are spaced around the Pacific 
and into the South Pacific as well as the Atlantic and the 
Caribbean area to provide warnings for the gulf coast and east 
coast.
    So that represents an increase from 6 to 25. We had six 
experimental buoys in the water at the time of the Indonesian 
earthquake, buoys off of Alaska and off of the Aleutian Islands 
and off of the west coast. We now have 25 of these deepwater 
buoys to protect us from all directions. Thanks to funding from 
Congress, we also have 24 by 7 coverage, so we have people on 
duty at the warning centers around the clock that provide those 
warnings. We are equipped today to provide the warnings to the 
Atlantic, to the Pacific and Pacific rim and we now have, from 
our international efforts, a buoy in the Indian Ocean and we 
are working to provide the coverage for the Indian Ocean for a 
worldwide system. We're also building more interest, I think, 
from communities to become tsunami ready. We've had 10 to 20 
new communities join that program.
    Senator Mikulski. Do you have enough? In looking at this 
year's appropriations to keep the tsunami program on track?
    Admiral Lautenbacher. We do. If we are allowed the increase 
of the $1.7 million, that will provide us the ability to 
complete the program and to maintain the continuity of it into 
the future.

         <greek-l>NOAA deg.SUSQUEHANNA BASIN MONITORING SYSTEM

    Senator Mikulski. Something that is very important to us in 
the Northeast, is the Susquehanna River Basin, which stretches 
from upstate New York, goes through Pennsylvania, touches a bit 
on Delaware but mostly New York and Pennsylvania and comes into 
Maryland and converges at a place at Port Depost, that without 
this Susquehanna warning system, could have tremendous loss of 
lives and an inability to manage it. I understand that the 
Susquehanna Basin monitoring system needs upgrading but it is 
never included in the budget. Can you tell me where we are on 
that and we do know it needs to be modernized. It was 
originally put into play in the 1960s and technology has 
changed and the weather has gotten more severe.
    Admiral Lautenbacher. It does need to be modernized. We 
work with the United States Geological Survey (USGS) to try to 
ensure that there is funding in those areas. Many of our 
systems need improvement for monitoring of streams. We have 
some programs to improve the technological capability of these 
monitoring stations. Our AHPS Program, which is the advanced 
hydrological prediction system, makes use of these gauges so 
we've made some increases but more remains to be done in that 
regard.
    Senator Mikulski. I would really like, as part of the 
excellent work that you're already doing, to include funding 
for this. We're talking about maybe $2 or $3 million that 
impact four States and billions of dollars of private property 
and impacting also on Aberdeen Proving Ground. And I would 
really like you to take a look at that as we move through this 
and look ahead.

<greek-l>NOAA deg.NATIONAL ACADEMY OF SCIENCES REPORT ON CLIMATE CHANGE

    Let me get then to the whole issue of climate change, 
studying our planet and also the oceans. The National Academy 
of Sciences has issued a report encouraging that NASA and NOAA 
sign a memorandum of agreement and follow about 17 different 
projects to really coordinate and have a synergistic leveraging 
effect on Earth science and encourage this. Have you had a 
chance to review this document? Your reaction to this document? 
Where is this heading with Dr. Griffin and where would this be 
in this budget because again, following the reports of a 
National Academy, which means it has been peer reviewed 
recommendations. It's not what anyone of us wants but it seems 
like it would really leverage what we need to know and play a 
major role in climate change.
    Admiral Lautenbacher. It's a very important study and it 
was one that was chartered and supported, obviously, by NASA 
and NOAA. I have read the report. I agree with the thrust of 
the report. Right now, both within NOAA and NASA, we are going 
through the detailed recommendations and looking at ways that 
we can bring them into effect. It's an important study for us, 
for both agencies. I have talked with Dr. Griffin about it and 
we take it very seriously. It did not come out in time to 
affect the fiscal year 2008 budget but it is going to be an 
important factor as we go through this year developing it.
    Senator Mikulski. Well, NASA itself is under tremendous 
stress, as my colleagues here at the table would attest to, 
from exploration, completing the space station as well as 
science and we work very closely together but in order to 
leverage every nickel from every agency, to accomplish a 
science budget, I think it's really important that NOAA and 
NASA will get at how they can literally leverage each other, 
particularly in the science area, while we look at completing 
the very important responsibilities for this station and a crew 
return vehicle. So we've got a lot here that we're juggling, 
including my time.
    I have other questions. We haven't forgotten the NSF. It 
shows you how important this hearing is. Senator Shelby, I'll 
turn to you.

         <greek-l>NOAA deg.AMERICAN COMPETITIVENESS INITIATIVE

    Senator Shelby. Thank you, Madam Chairman. As I mentioned 
in my opening statement, Admiral, I'm concerned that NOAA was 
noticeably excluded from the American competitive initiative, 
the ACI program. NOAA stands out as an international leader in 
marine and atmospheric science. We all know that and it's in 
line with other advanced science agencies that are part of ACI. 
Admiral, from what you know of ACI and I think it's a lot, what 
aspects of NOAA do you feel have the potential to be part of 
this innovative program?
    Admiral Lautenbacher. I thank you, Senator Shelby. I think 
that we are part of the American competitiveness initiative. 
Obviously, not in the funding arena as most people know----
    Senator Shelby. Well, you are and you're not but go ahead.
    Admiral Lautenbacher. We are and we're not and the issue 
was to talk about basic research. NOAA doesn't have a 
definition of basic research so there is an issue with that. 
But we do have a substantial and very important R&D budget of 
around $500 million, depending on what categories you use and 
we are absolutely essential for the competitiveness of our 
economy. As I pointed out, one-third of our GDP depends on the 
kinds of environmental information that make our country 
competitive in a variety of industries.
    We have looked very carefully at things like aquaculture. 
Here's an area where we need to be innovative. We are, in fact, 
going to try to partner with the National Institute of 
Standards and Technology (NIST), to leverage some of the money 
that is in that budget because an $8 billion trade deficit is 
an important area of our economy so we are looking to try to 
provide more innovation in building the kinds of tools for 
sustainable aquaculture, for doing it in an environmentally 
sensitive way. We're looking at trying to be innovative, given 
the importance of the satellites.
    We have taken the newest instruments that NASA has 
developed and have figured out how to assimilate them into our 
weather models and our climate models so we're getting right on 
the front edge of research to ensure that it provides benefit 
for the country. We are asking this year to experiment and use 
unmanned aircraft to help us gain more information. The Arctic 
is a region that would be very useful for us to work in with 
these kinds of instruments and certainly, severe weather. 
Hurricanes, storms at sea and that sort of thing. Phased array 
radar--as we talked about trying to increase the warning times. 
Remember that in 1985, our warning time for tornadoes was 
negative. It was minus 2 minutes to warn people about 
tornadoes. Today, it's an average of 13 minutes or so and the 
Enterprise, Alabama tornado was a warning time of about 18 
minutes. That's because of the technology innovation that has 
been created from our research.
    We're looking now towards dual polarization radar systems 
that will help improve that warning time and in the future, we 
have a program for phased array radars. These are the radars 
that the Navy has on their ships at sea, which could double for 
Federal Aviation Administration (FAA) types of radars as well 
as allow us to gain significant advantage in the warning time 
that may save more lives. So those are a few of the things that 
we're working on and there are many others, Senator. Thank you 
for the question.

 <greek-l>NSF deg.NATIONAL SCIENCE FOUNDATION'S EDUCATION PROGRAMS AND 
                  AMERICAN COMPETITIVENESS INITIATIVE

    Senator Shelby. Dr. Bement, as I mentioned in my opening 
statement, the ACI provides substantial dollars on the research 
side of the National Science Foundation (NSF), yet hardly 
touches the education efforts at NSF. One of the goals of the 
ACI as well as the Augustine report, is to develop a sustained 
pipeline of highly trained U.S. students in scientific fields. 
You're very aware of this. I'm disappointed that the potential 
for educating our students to be the scientists and engineers 
of the future has not been a highlight of NSF's portion of the 
ACI. Can you take this opportunity here today to talk about the 
program, such as the math and science partnerships, HBCU and 
other K through 12 programs where NSF can achieve the goals our 
country needs to stay on the cutting edge and remain 
competitive?
    Dr. Bement. Thank you for that question, Senator Shelby. 
Obviously I feel very strongly about education because 
educating the workforce of the 21st century is a major goal of 
the ACI.
    Senator Shelby. It's the key to our survival economically 
and our standard of living, isn't it?
    Dr. Bement. Absolutely. And you know, throughout all of our 
programs, even our research programs, we include education 
components, because those who do the research are graduate 
students who eventually move into the private sector or 
academia and become the leaders of our innovation system. So 
it's critically important and we try to keep our program in 
balance at all levels, K to 12, undergraduate and graduate 
education. The 2008 request was structured at the time that the 
Academic Competitiveness Council was formed in response to the 
Deficit Reduction Act of 2005 and the sense of that legislation 
was that programs should be increased on the basis of rigorous 
evaluation and evidence that they were meeting their goals.
    All of our programs are evaluated. Some were evaluated at 
the time the budget was formulated. Some are scheduled for 
evaluation this year and next year. You'll note in our budget 
that the programs that had been shown effective were plus-ed up 
significantly by 10 percent or more. There were some that were 
flat funded, pending evaluation this year and next and 
hopefully those budgets will increase after they are shown to 
be effective.

   <greek-l>NOAA deg.NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION 
                       DISASTER RESPONSE CENTERS

    Senator Shelby. In recent years, NOAA has greatly improved, 
as we know, the timeliness of severe weather warnings. You just 
mentioned this and I think you will continue to make progress 
there. It saves lives. Yet despite this warning, many lives are 
still lost as we know this last week. Effectively safeguarding 
our citizens from natural disasters involves more than just 
improving warning times. It requires better education, better 
planning, better infrastructure, and better emergency response. 
Does it not? I will--you said yes, didn't you?
    Admiral Lautenbacher. Yes, absolutely.
    Senator Shelby. Last year, NOAA explored the viability of 
having a Disaster Response Center on the gulf coast, a NOAA 
center that can effectively respond to weather and marine 
disasters as well as serve as a focal point for innovative 
research that prevents future storms from inflicting such 
deadly results in the gulf. I think it is necessary. In your 
opinion, what would such a gulf center need to effectively meet 
the full spectrum needs of mitigating disaster response before, 
during, and after these weather events? Because they will 
occur.
    Admiral Lautenbacher. Yes, sir. They will occur. And we 
found out that we didn't have a really coordinated response 
effort to Katrina. I'm very proud of what we did in the gulf in 
restoring and providing our services down there but the object 
of having a node that is in the area that has a trained staff, 
that has the kind of the facilities that are available in an 
area that is close enough to bring them together.
    Senator Shelby. Does that make a lot of sense?
    Admiral Lautenbacher. It makes a lot of sense and we are 
working on regional types of initiatives within NOAA and this 
region would be obviously very critical to us.
    Senator Shelby. Thank you.
    Senator Mikulski. Excellent point. Senator Reed, from an 
ocean State?

              <greek-l>NOAA deg.REGIONAL FISHERIES COUNCIL

    Senator Reed. Thank you very much, Madam Chairman and let 
me first thank Admiral Lautenbacher for the decision by NOAA to 
evaluate Rhode Island for the home port for the Okeanos 
Explorer, which is a ship that will be, I think, very, very 
useful in terms of your mission and also for the proposed 
increase in funding for ocean exploration in this budget. Thank 
you very much.
    Let me turn, Admiral, to a question about the Regional 
Fisheries Council. Since 1977, the budgets for these councils 
increased about 25 percent whereas the National Marine 
Fisheries Service (NMFS) budget went up about 225 percent. 
We're asking the councils to do more and more with the Magnuson 
Act reauthorization. Could you tell if there is going to be a 
funding increase in this budget for regional fisheries 
councils?
    Admiral Lautenbacher. There is an increase and it is a 
modest increase based on the increment that I was able to get 
for the Magnuson-Stevens reauthorization, so part of the 
funding that we've talked about there is going to improve the 
science, and the support that each of these fishery management 
councils must use to meet the requirements of this bill. It's 
important to us to maintain fishery councils that are capable 
of doing the work.
    Senator Reed. It seems that they have more responsibilities 
but the resources aren't concomitant with that responsibility, 
is that fair?
    Admiral Lautenbacher. I would say that it has been 
difficult over the years, to keep pace with the increasing 
administrative and scientific requirements. I'm very sensitive 
to it and would like to do more in that area.

 <greek-l>NOAA deg.NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION SEA 
                             GRANT PROGRAM

    Senator Reed. Thank you. The NOAA Sea Grant Program, for 
years, has been the mainstay of a great deal of research. In 
fact, I think at the University of Rhode Island is one of your 
largest programs and the program took a significant cut in 
fiscal year 2006 and the President's budget this year is simply 
a repeat, about $55 million. With increased discussion of ocean 
research, hurricane effects, tidal issues, all these things, 
why can't we do more with respect to sea grant funding?
    Admiral Lautenbacher. Well, quite frankly, I would like to 
see a larger sea grant budget. We were very sensitive to the 
congressional compromise, I guess, at the level that we have 
today so I'd like to keep working on trying to build the sea 
grant budget but looking at the lay of the land and the 
priorities and what would be supported at levels we have today, 
continuing the congressional appropriated level was felt to be 
the best approach, given the resources that we have.
    Senator Reed. Now, one following question--I understand 
National Marine Fisheries Service put out a request for funding 
proposals for research and those proposals were presented--at 
least offered to sea grant programs but I understand they are 
being offered to consulting firms instead of the sea grant 
programs. Is there a reason why the sea grant program wasn't 
used?
    Admiral Lautenbacher. NOAA offers numerous funding 
opportunities that directly relate to our core mission, 
including grants for cooperative research. In June and December 
2006, NOAA published in the Federal Register Omnibus notices of 
consolidated sources of program and application information 
related to its competitive grant and cooperative agreement 
award offerings for fiscal year 2007. In addition, in February 
2007 NOAA augmented the Omnibus notices by publishing in the 
Federal Register a Broad Area Announcement (BAA) to request 
proposals for special projects and programs associated with the 
agency's strategic plan and mission goals as a mechanism to 
encourage research, technical projects, or sponsorships that 
are not normally funded through our competitive discretionary 
programs. While each grants program has specific guidelines 
regarding eligibility, in general, researchers at Sea Grant 
colleges are free to compete for NOAA funding.

<greek-l>NSF deg.EXPERIMENTAL PROGRAM TO STIMULATE COMPETITIVE RESEARCH

    Senator Reed. Thank you, sir. Dr. Bement, thank you for 
your testimony and for your leadership and you mentioned 
EPSCoR--that's to us a very important program. We fought hard 
to get EPSCoR into Rhode Island and the thought was and I think 
the theory is that EPSCoR would allow a much more active 
participation in the national research funds of NSF.
    It seems, however, that the NSF distribution of research 
funds has changed little over 25 years, that there are States 
that continue to have a lion's share and then many other States 
are still at 10 percent or less. In fact, one-half the States 
are 10 percent or less of the funding and my sense was when 
EPSCoR was rolled out, it was to give you a big footprint all 
across the country and not just to particular areas of 
research. So are you evaluating ways in which every State can 
participate more aggressively in the NSF funding through 
EPSCoR?
    Dr. Bement. Yes, we are, Senator Reed. I should point out 
that I felt that EPSCoR could be more strategic, more 
effective, so we moved the EPSCoR office into the Office of the 
Director and the reason that EPSCoR serves and interacts with 
all the divisions and all the research offices in the 
Foundation. So it provides much closer coordination through the 
NSF senior management team, not just rely on the base funding 
for EPSCoR, which is largely through the research 
infrastructure improvement program, but to use those 
improvements to be more effective in addressing the rest of our 
research budget, which is the $4.8 billion part.
    We will be looking at the strategic initiatives to do that 
and we did have a workshop just last year where we brought the 
leadership from EPSCoR to the Foundation and they developed 
their report for ``EPSCoR 2020''. So that report is informing 
us on some of the initiatives, but we'll go beyond that report 
as well.
    Senator Reed. Thank you very much, Doctor and it's an 
important program and I encourage you to keep looking at in 
strategic dimensions. Thank you, Madam Chairman.
    Senator Mikulski. Senator Hutchison.

            <greek-l>NOAA deg.WEATHER MODIFICATION RESEARCH

    Senator Hutchison. Well, thank you, Madam Chairwoman. I 
think we have discussed a lot in the area of hurricane 
notification and certainly better timing of notification of 
hurricanes and violent storms; but in the last Congress, I 
tried very hard to work with NOAA on weather modification 
research and NOAA, frankly, blew me off, honestly--didn't care 
about it, didn't want it. They suggested that we go to the 
Office of Science and Technology Policy (OSTP) in the White 
House. OSTP didn't really want it either. My question is, am I 
missing something? Why wouldn't we want, in addition to knowing 
in a timely manner, how we protect against these violent 
weather storms, tornadoes, and hurricanes, why wouldn't we 
study if there are ways to modify these types of occurrences 
and do the research on weather modification in how one area 
affects another area, either for the better or the worse?
    Admiral Lautenbacher. Certainly it's an important topic. If 
you ask our meteorologists and our folks that look at the kinds 
of things that we do--that we are charged to do in our 
authorization bills and appropriation bills, obviously the 
warning and the observation of current storms needs to take top 
precedence because we can't neglect our ability to be able to 
warn citizens and save lives today.
    Senator Hutchison. Of course, of course.
    Admiral Lautenbacher. And then the next point is that you 
start looking at the maturity of weather modification as a 
science and it's really in a basic phase of science. I don't 
want to force it off on my colleague here, who does basic 
science----
    Dr. Bement. I'm glad you did.
    Admiral Lautenbacher. But in all seriousness, NOAA doesn't 
engage in the giving of grants that are in the experimental, 
very grade level of asking fundamental questions. Those kinds 
of things are done by the basic research agencies and what we 
felt was that OSTP, as the head of the science enterprise for 
the U.S. Government, would be in a better position to allocate, 
to decide how to deal with the issue. I think it is an 
important issue and certainly we did not try to blow it off at 
all. I think we need to worry about it and think about it. 
Other countries do and we should do it as well.
    Senator Hutchison. Well, where should it go, and where will 
it get thorough attention? OSTP didn't pick it up. We 
couldn't--actually, they stopped the bill, to be honest. So 
where should it go? Should it go to the National Science 
Foundation? Is that something that would fit there? It seems to 
me that it would more likely fit in NOAA but putting it in the 
White House where they have so many other areas of need, didn't 
seem to work either. Can either of you, Dr. Bement, can you 
suggest if there is something----
    Dr. Bement. Senator, there are many ways in which NSF and 
NOAA collaborate closely and especially in the area of 
understanding extreme weather formation, hurricanes, and 
cyclonic events, and also research on climate change. We are 
very much interested in how best to model the intensification 
of hurricanes, and we do that very well, but also to deal with 
other cyclonic behavior like tornadoes, to understand how they 
form and how they propagate. It is that type of basic research 
and the cyber-infrastructure that goes with modeling and 
simulation that will inform us on how to mitigate these very 
extreme weather events and if modification is the only means of 
mitigation.
    Senator Hutchison. Do you think that we could work to bring 
our bill back and is there a way to bring in NSF and NOAA, 
together, where I think there is more collaboration--the White 
House, OSTP, doesn't really--they don't have grantmaking. 
They're not on the ground studying the research and looking at 
ways to better notify residents of coming storms and floods. Is 
there a potential that we could work together to carve an area 
where we not only look at notification, which is absolutely the 
first thing, I understand, but also whether research holds 
potential that we would lessen the impact of a hurricane 
forming 1,000 miles out in the ocean?
    Dr. Bement. Well certainly, Senator, speaking for the 
National Science Foundation, we would continue to encourage 
grants from the universities and colleges to do research on 
that topic. We would certainly make that information available 
in the open literature.
    Senator Hutchison. My question is, could I work with you, 
then, Dr. Bement, to try to set something up that might create 
a focus there at the NSF?
    Dr. Bement. I'd be delighted to work with you.
    Admiral Lautenbacher. If you'd allow us, we'll work with 
the Office of Science--we can work together, too, if you can 
provide for----
    Senator Hutchison. I think that would be helpful since you 
have so much in that area.
    Admiral Lautenbacher. We can continue this further than I 
thought it had been.

              <greek-l>NOAA deg.RENEWABLE ENERGY RESEARCH

    Senator Hutchison. Okay. Let's work on that. The other area 
I want to quickly just ask about is, I am working on a bill now 
that would establish a council on renewable energy, which would 
again bring together a focus on research on renewable energy, 
including wave technology and wind technology, wind energy 
created in the oceans or the gulf. Do you think that we could 
do something by bringing all of those entities together? My 
bill actually puts in either the National Science Foundation or 
the Federal Lab Consortium for Technology Transfer but do you 
think that there is a potential and maybe you're already doing 
it and I would like to know, on wave technology for creation of 
energy and wind energy in the water as opposed to wind on land?
    Admiral Lautenbacher. Yes, we are the definer of the 
resource, so to speak. We have models, wave models and we have 
the National Oceanographic Data Center that produces reams of 
data of interest. We don't do the actual research on the energy 
devices themselves but we're a part of what needs to come 
together.
    Senator Hutchison. But you could provide the data on what 
kind of power would be in the different parts of the----
    Admiral Lautenbacher. We could tell people where--what 
sorts of energies are available in different parts of our 
coasts at what times of the day, et cetera, how things change. 
We also do that for wind, so if you want to place a wind farm 
somewhere, you can come to NOAA and see where there are winds 
and what the potential capability from them is. The same thing 
works for waves but the actual research on the instruments 
themselves that you would use to harness the energy would be 
done by the Energy Department or by some other outfits in the 
academic or private sector.
    Senator Hutchison. Okay. We're going to be working with the 
National Science Foundation on that as well. Thank you, Madam 
Chairman.

    <greek-l>NSF deg.INTERNATIONAL POLAR YEAR AND THE ALASKA REGION 
                            RESEARCH VESSEL

    Senator Stevens. Thank you, Madam Chairman. I have noticed 
that there is a $59 million request for the IPY activities in 
the budget. I'm sure that you both know that great, desirable 
Alaska and the Alaska Delegation that this money be used in a 
way to try to bring about some understanding of the climatic 
activities in Alaska and really, also the social challenges 
that we face because of those changes.
    We had a hearing last year on this matter and we had hopes 
that these monies would be spent in that way. I don't know what 
the plans are and I'd be happy to learn them.
    I do hope that you will acknowledge the role that Alaska 
must play in the IPY activities. I also note the President now 
has a request for NSF for $42 million for the construction of a 
new Alaska region research vessel. This will replace the Alpha 
Helix, which is a ship that has been dedicated to science. The 
replacement will literally be a floating laboratory focusing on 
chemistry, biology, physics, oceanography, geology. The 
President had $56 million in the 2007 budget. This year there 
is $42 million. Had the first been available--this $42 million 
would have completed construction on that vessel. Unfortunately 
some people around here think that that is an earmark for 
Alaska. It's part of the budget and I'm very disturbed at the 
way it's been viewed by some people.
    I also want to note that we have great hopes that NOAA will 
really use some of these funds available in the President's 
budget. You've got a 3.4 percent increase. I know, however, 
that it is still below the enacted level for 2006 and 2007 but 
we have some enormous changes taking place. One-half the fish 
that we provide from domestic sources are harvested off the 
North Pacific of my State and we are very fearful that the NOAA 
programs that have been ongoing, including the monitoring of 
sea life and research--we now have a petition to declare the 
beluga whales endangered in the Cook Inlet. They are there when 
the fish are there. They follow the salmon. But now we've got 
lawsuits about that, too. I do think that--you mentioned the 
Magnuson-Stevens Act--money--I do think that we have to 
continue our protection against overfishing those areas but I 
do hope that--my question for that introduction is, what are 
you going to be doing about IPY and what's the situation with 
regards to the ship?
    Dr. Bement. Thank you very much, Senator Stevens. IPY is a 
2-year activity but we hope to put in legacy systems that will 
continue research over the next 50 years on some of these 
global issues, including sustainability. With regard to the 
State of Alaska, I have been working, and so has our Office of 
Polar Programs, with the University of Alaska at Fairbanks. 
We've been trying to get a closer partnership with the Barrow 
Climate Change Research Facility. So some of the infrastructure 
elements that we'll be investing in under the International 
Polar Year will be first of all, an Arctic observing network 
that will be linked in with other countries involved in IPY, 
and this Arctic observing network will be part of what we call 
SEARCH, which is the study of environmental Arctic change, and 
hopefully, will eventually be part of GEOSS, the global Earth 
observing system of systems. That is a platform to build upon.
    Second, we need to be able to measure climate change on a 
year-round basis, not just in the summertime. At Toolik Lake, 
we want to make that a year-round facility and we'll be making 
investments to provide the energy and the heating requirements 
to make it a year-round facility.
    Third, working with NOAA on the Barrow Climate Change 
Research Facility, that facility will be completed and will be 
operational next year, in time for the International Polar 
Year. As a result of a workshop we had approximately 1 year ago 
with the University of Alaska and the Barrow Arctic Science 
Consortium, we've identified a number of opportunities for 
those two entities to work closely together during IPY and that 
will require instrumentation of the research facility and also 
connectivity to broadband communications and to the Internet. 
That will give researchers at Barrow access to the University 
of Alaska computing facilities as well as their technical and 
scientific library capabilities. Those are a few examples of 
what we have in our plan for Alaska during the IPY.
    With regard to the Arctic region research vessel, that 
program is going well. We had our solicitation. The proposal 
that was selected turned out to be a sole proposal, from the 
University of Alaska at Fairbanks. We intend the Arctic region 
research vessel to be a national asset, more than just an asset 
for the State of Alaska. There were some issues with the 
proposal but we will work with the University of Alaska to 
broaden the scope and improve the plans for managing the 
project.
    We hope to be able to start that project this fiscal year 
and we will be requesting permission to do so in our 2007 plan.

          <greek-l>NOAA deg.INTERNATIONAL POLAR YEAR PROJECTS

    Admiral Lautenbacher. Well, as you're aware, the bulk of 
the new IPY funding or additional funding is not within NOAA. 
We are partnering with the agencies as I am with NSF to 
leverage the basic research funding that is going into it. We 
have $15 million associated directly with the IPY projects, 
which is an increase of $1 million for new projects.
    The bulk of that is in observations. We need to create, as 
I know you well know, a better long-term observing system for 
the Arctic. We've partnered with the Canadians to start a new 
Arctic Observation Station on Ellesmere Island. We have 
research crews into the Arctic with the Russians, where we are 
leveraging some of their money.
    We are going to continue looking at the stratosphere of 
ozone measurements. We have put some money in for looking at 
improved weather, sea ice, and ocean wave forecasting in the 
Arctic. That's a special part of the world, as you are well 
aware. That will be an important part of refining the new 
information that comes out of it and using it, hopefully, to 
help improve our weather and climate forecasting. We are 
looking at predictions on improving arctic environment 
forecasts from seasonal to centennial. So we want to get into 
the climate prediction area for that part of the world.
    A very important part of the data gathering is the $3.3 
million we have for UAS systems, unmanned aircraft systems, a 
perfect place to test and experiment with those kinds of 
systems for continuous observing, is the Arctic. We plan to 
look for a strong way of doing that during this IPY. Thank you, 
sir.

           <greek-l>NOAA deg.INTERNATIONAL WHALING COMMISSION

    Senator Stevens. I'd be remiss if I didn't mention that the 
meeting in Anchorage of the International Whaling Commission, 
for almost 25 years, through the great efforts of Sylvia Earl, 
who is one of your predecessors. We've had the opportunity for 
Alaska Eskimos to harvest a number of whales that they use to 
consume. It's not a commercial operation. Japan now, is using 
surrogates from Pacific and Caribbean Islands to try to 
threaten that program unless we all support the restoration of 
their commercial whaling activities, which we oppose, totally 
oppose.
    I hope that you use all the efforts that you can to 
convince the Japanese that as far as I'm concerned, if they 
insist on destroying the Eskimos ability to continue their 
cultural activities and have that meat available for their 
personal use because of the world's desire not to support their 
commercial activities, I think this--I will lead the charge and 
get some severe reaction against the nation of Japan. They're 
wrong and that's a small group within their country. They 
should not be doing this politically. They should not be doing 
it with their Embassy group and I'm really very disturbed with 
Japan to think that they believe that those 15 to 18 whales 
that our people consume should be offset by commercial whaling 
off their country, we've now restored the populations. They are 
balanced and protected so I hope you will all help us emphasize 
to Japan, this is not their day to bargain commercial whaling 
against Eskimos right to survive.
    Admiral Lautenbacher. Yes, sir. We're working very strongly 
to support your position. Thank you, sir.
    Senator Inouye. Thank you very much, Madam Chair. I'd like 
to say that the Senator from Alaska is absolutely correct.
    Madam Chair, the two agencies represented here are the 
guardian angels of the State of Hawaii. Hawaii, as we all know, 
is rather unique, isolated. For example, we have 85 percent of 
all the coral reefs in the United States. We just opened up a 
140,000 square mile marine sanctuary. That's more than all the 
national parks combined.
    And we're counting upon NSF to save us because of the 
climate change studies. You may not know this, Doctor, but as a 
result of your work, real estate people are beginning to look 
at whether coastal properties are just as good as mountain 
properties.
    Senator Inouye. The coastal properties used to be the prime 
ones but now with the sea level getting up there, people are 
beginning to take a second look. So what do you do? Hawaii is 
very important and we're working at this moment, Madam Chair, 
with the NSF on the feasibility and possibility of establishing 
a major solar telescope on Mount Hale/Akala and we're pleased 
with the work that NOAA does for us. For example, without NOAA 
I don't think Hawaii or the rest of the world can get such fast 
advance notice on tsunamis. I don't have any questions. I just 
want to thank them and I thank you.
    Admiral Lautenbacher. Thank you very much, Senator.
    Dr. Bement. Thank you very much, Senator.
    Senator Mikulski. Well, the Senator was absolutely right in 
describing his own State. Before he arrived, we asked about the 
status, particularly of the tsunami early warning system, which 
I knew that you've been a real leader in establishing and 
advocating with this subcommittee, regardless who was Chair. 
Yes, sir?
    Senator Inouye. I have one question for the National 
Science Foundation. This is my third meeting this morning and I 
had to attend all three. Can you devise some system for the 
United States Senate where we can attend several meetings at 
the same time? I go to one for 10 minutes, another one for 15 
minutes and here I am and I didn't hear your testimony. I 
wanted to be here in the morning, Madam Chair but----
    Senator Mikulski. Well, you're here. We're very well 
mindful of this.
    Senator Inouye. Can you get the NSF to do this for us?
    Senator Mikulski. We can put that in with Senator 
Hutchison's Weather Modification Program.
    Senator Inouye. I move to increase----
    Senator Mikulski. We'll get a College Senate Venture 
Capitol Fund.
    Dr. Bement. I think, Senator, perhaps in the next 50 years, 
we might be able to discover how to clone you physiologically 
but I don't think we'll ever be able to clone you mentally.
    Senator Mikulski. Senator Shelby.
    Senator Shelby. Thank you, I think.
    Senator Mikulski. A wrap-up here.

     <greek-l>NOAA deg.FUNDING INCREASES FOR NATIONAL OCEANIC AND 
              ATMOSPHERIC ADMINISTRATION SATELLITE PROGRAM

    Senator Shelby. The Senator is absolutely on point, though. 
We do have to be at a lot of places at the same time and we 
can't do this but we appreciate your appearance here today. 
NOAA--the NOAA 2008 budget shows a decrease in overall 
satellite costs. However, it is my understanding that Congress 
can expect future increased budget requests for our NPOESS.
    At some point, NOAA needs to make up for the $4.1 billion 
gap between the program's original cost and its projected 
expenses. NOAA's satellite program dwarfs the funding levels of 
NOAA's other research and operation programs. Admiral, what 
assurances, if any, can you provide the subcommittee today, 
that any increased funding for NOAA's satellite programs, which 
are important, will not infringe on the budget request for 
NOAA's other research and operation programs, especially for 
ocean-related activities?
    Admiral Lautenbacher. Yes, sir. That's a very important 
question. We have tried to work on, since I've arrived, a 
longer range budget forecasting and programming system. One of 
the results of that is that we have delivered to you, through 
the chain of command, a budget that goes out 5 years. So you 
can look--we can look and see what's there.
    Senator Shelby. We know. And you're deeply challenged here. 
I know this, as we are.
    Admiral Lautenbacher. Yes, yes we are. But I think there is 
a realization, certainly through much of my chain of command in 
the administration that you have to look at these longer term 
plans and if you commit to a certain year, you are committing 
to a budget estimate that must be accounted for. I assure you 
that I will continue to push to have that capitalization budget 
held separately from the operating budget. Can I guarantee what 
will happen as you have future difficult budget decisions to 
make? That's a very difficult thing for me to make projections 
and commit to today. But I think there is more interest in 
dealing with the capitalization budget on a rational basis and 
looking at the operational budget.
    Senator Shelby. Absolutely. And I think this is going to be 
one of our challenges here, too.
    Admiral Lautenbacher. Yes, sir.

           <greek-l>NSF deg.NATIONAL SCIENCE FOUNDATION DAYS

    Senator Shelby. The National Science Foundation. Raising 
the awareness of opportunities available through research 
grants for the National Science Foundation, we know will 
benefit the Nation and also bring researchers with great ideas 
to an agency that funds the best of the best research. One such 
way to do this is through the National Science Foundation days 
where Foundation staff go to schools and explain the grant 
application process and how to improve proposals submitted to 
the National Science Foundation because we're interested in the 
best of the best, aren't we, Doctor?
    Dr. Bement. That's correct.
    Senator Shelby. Could you give us briefly, some examples of 
how high past NSF Days have had an impact on improving grant 
approval rates at locations where the National Science 
Foundation has conducted some of these meetings?
    Dr. Bement. Yes, sir. As you know, NSF has conducted three 
NSF days in the State of Alabama over the last 5 years, the 
last one being at Tuskegee just last March. What we normally 
discover is that it is an opportunity for all of those who 
attend these NSF Days. Collectively, for all three of these 
events, we interacted with 400 principal investigators (PIs) in 
the State of Alabama. Those who attend the days have an 
opportunity to talk with program officers and they have an 
opportunity to talk with other PIs on how best to submit 
proposals to the Foundation and especially how to submit a 
successful proposal. The proposal volume does go up shortly 
after the NSF Days, in fact, sometimes it's a blizzard. That is 
not the end of the story. Beyond that, it is a matter of our 
program officers working closely with the PIs after they may 
have been declined the first time to improve their proposals so 
that their chances of being accepted the second or third time 
can go up.
    We generally find that that's probably the best way to 
succeed in getting a grant. It's seldom the case that a grant 
is approved the first time but usually the second or third 
time. So the role of the program officer is really very 
critical.
    I should tell you, however, that workload on our program 
officers has become very enormous, primarily because what was 
the salaries and expenses account, which we now call the agency 
operation and award management account, keeps getting 
truncated, one way or another.
    The opportunity to improve success rate depends very much 
on the ability of the program officers to work with the PIs in 
improving their proposals.

                <greek-l>NSF deg.EPSCOR PROGRAM ENHANCED

    Senator Shelby. How will the elevation of the EPSCoR 
program into the Office of the Director enhance its position 
and benefit states in making them more competitive?
    Dr. Bement. It will get the senior management team more 
directly involved. We will be working more closely at that 
level, with the leadership in EPSCoR, to see what more we can 
do to re-invigorate the program and perhaps take a more 
strategic approach in improving the leverage of the EPSCoR 
investment. Those are the directions we'll be taking.
    Senator Shelby. Madam Chairman, I have a number of 
questions that I'd like to submit for the record, in the 
interest of time, if you would.

                   <greek-l>NOAA deg.POLAR SATELLITES

    Senator Mikulski. Certainly, Senator Shelby. We'll welcome 
those questions and before you might have to depart because I 
know we're--several appropriations hearings are going on 
simultaneously. I'd like to pick up on the issue of polar 
satellites and yesterday, Admiral Lautenbacher, you talked 
about it because it's accountability and I've got two big 
issues. You, with this satellite system and where we're heading 
this way also, with the research facilities that I think are 
getting overruns at the National Science Foundation.
    You outline for me and I'd like you to outline and repeat 
for Senator Shelby, how you intend to stand sentry over this 
bill, to bring about the necessary management reforms and 
oversight that have been triggered by Nunn-McCurdy that I think 
we can expect a better stewardship of this because this is a 
program that has overruns. We're worried about spending more 
money to get less science.
    This is one of the most crucial observatory tools that 
we're going to have, particularly for the climate crisis. But 
could you share, for the record which you shared with me and 
I'd like very much if Senator Shelby heard it because every 
time they hear about overruns, it's just one more excuse to not 
get support for what we need to do for the agency. Would you 
agree, Senator?
    Senator Shelby. Yes.
    Admiral Lautenbacher. Thank you, Madam Chair. I would be 
very happy to do that. This obviously is a very critical issue 
to me personally and to the agency.
    The entire NOAA team is energized to work on this problem. 
My Deputy for Satellites, Assistant Deputies, the Deputy Under 
Secretary. We have set a program management team. We have 
basically overhauled the management team inside of NOAA from 
top to bottom. We've made personnel changes where necessary in 
our chain of command and personnel changes within the program 
office and set up, basically an inspector general (IG)--
internal IG to make sure that there is continual oversight. We 
have also ensured that we'll work collaboratively with the 
Department of Defense and NASA, the other two agencies involved 
and I meet quarterly with the heads of acquisition for the 
Department of Defense (DOD) and Space, which is the Under 
Secretary of the Air Force and Administrator Mike Griffin from 
NASA. So we are definitely, personally involved and we have 
gotten the personal attention of the presidents of and chief 
executive officers (CEOs) of Northrop Grumman and Raytheon, who 
sit in those meetings, too.
    We have program monitoring from the Government down to very 
fine details inside the program. We are getting independent 
cost estimates frequently. We have independent review teams 
looking at it from outside to make sure we have independent 
advice to make sure people are on track. We track schedules and 
dollars on an earned value management system down four or five 
levels into the program and that information is reported daily 
and weekly, internal to the program.
    We are changing the contract to set up the right 
incentives. That was another criticism and we will reward 
performance versus just hanging in there. We've also revamped 
the program so that it is less risky. We have reduced the 
amount of difficult technical milestones that contractors had 
trouble meeting, to a level we believe they can be met. I am 
confident that the schedule that we put in place with the new 
funding profile is going to achieve success, and I assure you 
that everyone at NOAA, from top to bottom, is committed to 
making that happen, Madam Chair. Thank you.
    Senator Mikulski. Senator Shelby, does that give you a 
little bit more assurance on this matter?
    Senator Shelby. It does. I like what they're doing and 
you're trying to do. I think you just need some more funds.

     <greek-l>NSF deg.NATIONAL SCIENCE FOUNDATION FACILITY FUNDING

    Senator Mikulski. Let's go though, to also another area of 
accountability, is with the National Science Foundation. We're 
very concerned about the research facilities and also certain 
tools for research. The Alaska region research vehicle that 
Senator Stevens spoke about is really important. So we don't in 
any way minimize the need to have this vessel. And it's a 
research vessel, as I understand it, Director Bement, that has 
to operate in ice under very rugged conditions. But at the same 
time, it's running $25 million over the original estimate.
    Now, this ship could run aground here, with cost overruns 
and as Senator Stevens said, he's being treated like it's an 
earmark when essentially it's an integral part of Arctic 
research. And when the overruns come, it sounds like we're 
picking and porking out here in some Alaska toy when it's not. 
It is a very important research tool but we're very concerned 
about this $25 million cost overrun. Now why are there overruns 
and what are you going to do about it?
    Dr. Bement. Yes, Senator, thank you. This vessel was scoped 
a long time ago. The design was completed in 2004. The original 
baseline budget was set at that time. It is now being re-
evaluated. Since that time, there have been changes in 
regulations, some having to do with environmental operations, 
some having to do with safety and operating in the Arctic 
region. And as you know, this ship will operate in ice up to 2 
to 3 feet thick so it will be a great advancement over the 
Alpha Helix.
    In addition to that, commodity costs, especially the cost 
of steel has skyrocketed because of global demand, especially 
from China. Furthermore, shipyards are now value pricing their 
operations, primarily because they're overloaded with building 
ships for the oil industry. So it's very difficult to get a 
shipyard scheduled, and furthermore, the cost of construction 
in a shipyard these days has also escalated. As we move into 
the coming year, we're going to have to revisit the budget. I 
can assure you it will be higher than it is now. This is just 
the way things are turning out, but the sooner we get a start 
on that project, and that's one of the reasons we want to start 
it in 2007, the more I think we can mitigate these cost 
increases over the next year or two.
    Senator Mikulski. Do we know how much this is going to 
cost?
    Dr. Bement. I'm sorry?
    Senator Mikulski. Do we--you know, it's a pattern here that 
I've now experienced in other subcommittees and we're seeing it 
here, that there was a project. It was 2004. Then we're 
operating on data that is several years old and then we don't 
know what the cost is. But when we get into these things and 
they get started, it has congressional support because of the 
scientific necessity and then there we are. Now, do we know 
what this is actually going to cost?
    Dr. Bement. Madam Chair, we will very shortly revisit the 
design of this ship, based on current regulations. The redesign 
will take place over the next 4 months or so, and we then will 
re-baseline the cost. We will be able to report to you at that 
time what we think the real cost will be for this ship.
    Senator Mikulski. But at the same time that you're doing 
that, are you also going to be rebasing these costs?
    Dr. Bement. Oh, we do that on a continuing basis, not only 
internal to the Foundation but also with the grantees that have 
the responsibility for this ship.
    Senator Mikulski. Well, just know, we believe that this 
vessel is important, just like the satellites are important. 
And the world is mesmerized by Arctic research and now we're 
also looking at how to have more collaborative work with 
Greenland. We could elaborate on that. But when these things go 
$25 million, we also know that the ALMA telescope is $16 
million over. Now why is the ALMA telescope $16 million over?
    Dr. Bement. The ALMA telescope is pretty much the same 
story. The reflectors on the telescope are made out of a very 
expensive nickel-based alloy in order to prevent any thermal 
expansion, because it's a very precise instrument. The cost of 
those alloys have gone up enormously, again because of world 
pressure on commodity costs, which was the biggest contributor 
to the cost of the instrument. There are other factors that 
also contributed to increased project costs: construction costs 
in Chile and some upper management costs that escalated because 
it is a 50/50 joint venture between the United States and the 
European Southern Observatory that has been a very difficult 
teaming relationship to put together and to operate.
    Senator Mikulski. But then my question is--so what? Where 
do we go from here? And what again are the fiscal disciplines 
coupled with making sure that the fiscal discipline is so 
severe we lose the point of the project?
    Dr. Bement. Madam Chairman, we have re-scoped the project. 
We've reduced the number of telescopes from 24 to 50 in order 
to absorb some of the cost increases yet still retain the 
transformational capability for this facility. We have put in 
cost tracking methods and other management techniques and it 
has undergone a high level senior review of all elements and 
costs associated with the project. The project has been re-
baselined. We have re-established a contingency. We have better 
management tools in place and I think based on the reports that 
I get, are confident that we'll be able to stay within the 
current budget.
    Senator Mikulski. Well, you have a big responsibility here 
in this agency but I can tell you that as you look at how all 
of your research endeavors add up, if they begin to have 
overruns, there will have to then be a moratorium on new 
projects. I mean, the scientific community needs to know that. 
That is, once that goes up, there is not just unlimited--I'm 
not threatening. I'm not saying it. We would not do arbitrarily 
or capriciously. But every time we turn around, there is some 
big ticket being added then somebody else comes in and wants to 
do something new and we have inherited what are now becoming 
legacy projects and just these two alone come to $41 million in 
cost overruns. We know that instruments are expensive. We know 
about the global pressures on commodities, et cetera. At the 
same time, we are where we are. And, therefore, there needs to 
be both within the agencies themselves, all within our 
portfolio, NASA, NSF, NOAA--all--the FBI with their info-tech 
boondoggle that they are now getting back on track.
    The subcommittee is going to be very stern on 
accountability because it's the only way, particularly in these 
off austere budget times, that we must get value for the 
mission and I'm very--I want everyone in the Commerce, Justice, 
Science to understand it's not being prickly but we just face a 
real reality.
    Dr. Bement. Well, Madam Chairman, I accept that. As a 
matter of fact, I appreciate it because I stake my personal 
accountability on these projects.
    Senator Mikulski. And I know you do--we know each other 
from the National Institute of Standards and Technology.
    Dr. Bement. And between myself and the Deputy Director and 
our senior management team, we are spending much more time on 
this. We are having more frequent reviews and I can assure that 
going forward, we are going to watch these costs like a hawk.

            <greek-l>NOAA deg.ADDITIONAL COMMITTEE QUESTIONS

    Senator Mikulski. What we want to say very loud and very 
clearly to both the agency directors, to the scientific 
community and then to the private sector with whom we have to 
have contracts with, we've got to really--we've got to really 
exercise every modern fiscal discipline technique at our 
disposal and the Congress loves science and technology. So do 
the American people. But we can't rubber stamp. So that's kind 
of what we wanted to talk about. We also want to encourage 
ongoing cooperation in ocean research. That's something we'd 
like to talk about more in another day, also really encouraging 
our young people in science. I think Senator Shelby raised 
this. I don't want the subcommittee to end on a downer. It's 
because Senator Shelby and I are so committed to the fact of 
really rising above the gathering storm. But we have to also 
rise against what we fear is a gathering fiscal morass.
    [The following questions were not asked at the hearing, but 
were submitted to the administration for response subsequent to 
the hearing:]
      Questions Submitted to Vice Admiral Conrad Lautenbacher, Jr.
           Question Submitted by Senator Barbara A. Mikulski
                 progress on the u.s. ocean action plan
    Question. In response to the U.S. Ocean Commission, the 
Administration developed the ``U.S. Ocean Action Plan''. To date what 
progress has been made regarding implementation of this plan? To what 
extent does the ``U.S. Ocean Action Plan'' coincide with the 
recommendations of the Joint Ocean Commission?
    Answer. In January 2007, the Committee on Ocean Policy released the 
``U.S. Ocean Action Plan Implementation Updates.'' Seventy-three of the 
88 actions have been completed. The remaining actions are progressing 
on schedule.
    The U.S. Ocean Action Plan (OAP) was a required response under the 
Oceans Act of 2000 to the U.S. Commission on Ocean Policy. Therefore, 
it is difficult to directly map the OAP to the recommendations of the 
combined Commissions, represented by the Joint Ocean Commission 
Initiative. In broad terms, both Commissions outlined the need for: 
enhancing ocean leadership and coordination, developing the 
institutional capacity to coordinate across jurisdictional boundaries, 
and strengthening the agency structure in phases in order to enhance 
the goals of addressing management needs through an ecosystem-based 
approach.
                          ``counterfeit'' fish
    Question. A recent article in the Washington Post cited an example 
of counterfeit fish being sold to restaurants and consumers in Florida. 
The article reported how undercover agents ordered grouper at 24 
Florida restaurants, but the alleged grouper at 17 of 24 restaurants 
sampled by investigators was actually another, less desirable species, 
according to DNA analysis conducted. NOAA reported that, in many 
instances the ``grouper'' was actually farm-raised Asian catfish from 
Vietnam or other species that swim with grouper, and the filets have 
shown signs of salmonella and traces of illegal carcinogenic 
fungicides.
    How rampant of a problem is imported counterfeit fish?
    Answer. Mislabeled seafood products are a significant problem in 
the marketplace worldwide. While no definitive statistics exist about 
the rates at which fish is mislabeled, the NOAA Seafood Inspection 
Program (SIP) encounters several types of mislabeling that affect the 
economic integrity of seafood products. Examples of mislabeling 
include, substituting a lower cost species for a higher cost species, 
such as the grouper example in your question, short weighing, and 
altering the country of origin or fraudulently identifying the area 
fished and port of landing.
    A recent example of the problem is provided by a 2005 case where 
NOAA SIP rejected over nine million pounds of seafood that was destined 
for a large retail supermarket chain. Another recently completed 
investigation disclosed the importation of approximately 3 million 
pounds of falsely labeled fish product over a three year period. During 
this investigation NOAA seized approximately 300,000 pounds of this 
illegal fish which contained malachite green--a known carcinogen banned 
by the FDA. NOAA SIP works with many retailers to ensure that the 
seafood they buy meets their quality levels and these scenarios are not 
untypical.
    Question. Does NOAA have enough resources to adequately address 
this problem?
    Answer. Currently, NOAA has approximately 150 special agents and 20 
enforcement officers dispersed nationwide. Incidents of mislabeling are 
an international problem which provides substantial financial profits 
to those who participate in this illegal activity. Although NOAA's 
enforcement resources are primarily focused on importers and exporters, 
this illegal activity extends well beyond these operations to included 
distributors, wholesalers, retailers and restaurants. Investigations 
can take years to complete, are labor intensive, demand extensive 
financial and document analysis, and in many instances requires the 
cooperation of other countries. NOAA leverages its investigative 
resources by concentrating on the primary businesses (importers, 
exporters or large distributors) which have the greatest impact on this 
illegal activity.
    Question. What is being done to prevent this problem from 
escalating?
    Answer. Continued investigations and subsequent successful 
prosecutions of those found violating our laws is the best deterrent. 
Our investigations have resulted in the seizure and ultimate forfeiture 
of hundreds of thousands of pounds of mislabeled product worth millions 
of dollars on the market. Additionally, the imposition of fines and 
penalties in the millions of dollars and, in some cases, incarceration 
has a significant impact. In one recent case, two businesses were 
forfeited and we have observed the dissolution of business entities 
involved in illegal activities as a result of our enforcement 
activities. We continue to focus on the most blatant violators in an 
effort to have the largest impact on this illegal activity. Publication 
of our investigations and education of the public through various media 
sources is extremely helpful.
                              aquaculture
    Question. The NOAA budget for fiscal year 2008 requests an increase 
of $3 million to develop a regulatory program for marine aquaculture. 
What is the state of the U.S. marine aquaculture industry? What 
investment are our international competitors doing in regard to marine 
aquaculture? Are there technological barriers to more marine 
aquaculture? What is being done to reduce those technological barriers?
    Answer. The U.S. marine aquaculture industry is relatively small 
compared with overall U.S. and world aquaculture production. U.S. 
aquaculture production totals about $1 billion annually, compared to 
world aquaculture production of about $70 billion. Only about 20 
percent of U.S. aquaculture production is marine species.
    The largest single sector of the U.S. marine aquaculture industry 
is molluscan shellfish culture (oysters, clams, mussels), which 
accounts for about two-thirds of total U.S. marine aquaculture 
production, followed by salmon (about 25 percent) and shrimp (about 10 
percent). Current production takes place mainly on land, in ponds, and 
in coastal waters under state jurisdiction. Recent advances in offshore 
aquaculture technology have resulted in several commercial finfish and 
shellfish operations in more exposed, open-ocean locations in state 
waters in Hawaii, New Hampshire, and Puerto Rico.
    Marine aquaculture includes the production of hatchery fish and 
shellfish which are released into the wild to support commercial and 
recreational fisheries as well as to enhance or rebuild wild stock 
populations. Marine aquaculture also includes the production of 
ornamental fish for the aquarium trade and plant species used in a 
range of food, pharmaceutical, nutritional, and biotechnology products. 
There are also related industries--such as equipment production, feed, 
and nutrition companies and aquaculture consulting service firms--that 
provide support to the global aquaculture industry.
    According to the United Nations Food and Agriculture Organization, 
the United States ranked 10th in total aquaculture production in 2004, 
behind China, India, Vietnam, Thailand, Indonesia, Bangladesh, Japan, 
Chile, and Norway. The United States imports significant volumes of 
marine aquaculture products from these and other countries, resulting 
in an annual seafood trade deficit of about $8 billion.
    There is significant potential to increase aquaculture production 
in the United States using today's technology. Preliminary production 
estimates by NOAA indicate that domestic aquaculture production of all 
species could increase from about 0.5 million tons annually to 1.5 
million tons per year by 2025. The additional production could include 
760,000 tons from finfish aquaculture, 47,000 tons from crustacean 
production, and 245,000 tons from mollusk production. Of the 760,000 
tons of finfish aquaculture, 590,000 tons could come from marine 
finfish aquaculture.
    The major barriers to marine aquaculture are finding suitable sites 
in coastal areas (where aquaculture must compete with many other 
coastal uses), clarifying the regulatory and environmental requirements 
for existing as well as new marine aquaculture operations (including 
offshore), and developing technologies and best management practices to 
ensure that various types of production systems are compatible with 
marine ecosystems. There is also a need to develop hatchery operations 
to provide fingerlings for finfish production systems.
    Business needs regulatory certainty to make sound investment 
decisions and obtain financing. There is currently no way to obtain a 
permit for aquaculture in federal waters under existing laws and 
regulations. Thus, in response to the U.S. Commission on Ocean Policy 
and the U.S. Ocean Action Plan, the National Oceanic and Atmospheric 
Administration (NOAA) and the Department of Commerce drafted and sent 
to Congress the National Offshore Aquaculture Act of 2007. The Act 
would provide the necessary authority to establish a regulatory 
framework and authorize research for all types of marine aquaculture.
    Those concerned about the impacts of offshore aquaculture need to 
know the industry will be held to strict environmental standards by the 
proposed legislation. One way to address these needs at the same time 
as those of the marine aquaculture industry is through demonstration 
projects with research partners so that technologies and practices can 
be tested, their impacts evaluated, and systems improved. Another is to 
support research projects to develop alternatives to use of fish oil 
and fish meal in aquaculture feeds, develop culture methods for new 
species of value to commercial production as well as stock enhancement, 
and study the impacts (including cumulative impacts) of marine 
aquaculture on marine ecosystems.
    Since 1998, the National Oceanic and Atmospheric Administration 
(NOAA) has funded a total of $15 million through the National Marine 
Aquaculture Initiative (NMAI) to support research to boost the 
production of commercially and recreationally valuable marine shellfish 
and finfish species in the United States. Projects have responded to 
key scientific, engineering, environmental, and economic questions for 
aquaculture. For example, NMAI has funded studies of candidate species, 
health and nutrition, best management practices, ecosystems monitoring 
and management, engineered production systems, and legal and 
operational frameworks.
    In September 2006, NOAA awarded $3.6 million in competitive grants 
to 11 sustainable marine aquaculture demonstration and research 
projects under NMAI. The initiative is managed by the NOAA Aquaculture 
Program and administered by NOAA Sea Grant. The 2006 NMAI funding 
supports projects to assess the commercial potential of marine 
aquaculture, the feasibility of stock enhancement, the environmental 
impacts of aquaculture in various environments, as well as research on 
key aquatic animal nutrition and health issues.
    Another way in which NOAA is working to address technological 
barriers is through a planning process with the Department of 
Agriculture and the Department of Interior to develop a national 
aquatic animal health plan. This plan, which has been in development 
for four years and has included stakeholders from industry and state 
agencies, will provide protection for the nation's cultured and wild 
aquatic resources, facilitate safe commerce of live products, and 
improve the availability of diagnostic laboratories for aquaculture. 
This plan will be completed by summer of 2007.
    NOAA also has marine aquaculture research capabilities at NOAA 
laboratories within the National Marine Fisheries Service and the 
National Ocean Service, and research and extension capabilities through 
state Sea Grant Programs. Congressionally mandated research--such as an 
open ocean aquaculture demonstration project at the University of New 
Hampshire and research around the country on oysters, shrimp, crab, and 
other species--has also helped to advance the state of marine 
aquaculture technology. Other federal agencies and research 
institutions are also investing in research to address technological 
challenges. For example, the Advanced Technology Program within the 
National Institute for Standards and Technology has supported a number 
of advanced research and technology projects. In addition, aquaculture 
companies have received support for the development of commercial 
products and services through the Small Business Innovation Program 
(SBIR) at NOAA and the U.S. Department of Agriculture and, in the past, 
through the Saltonstall-Kennedy Program.
        noaa's center for weather and climate prediction project
    Question. The Committee was recently informed that the planned 
Center for Weather and Climate Prediction in College Park is behind 
schedule and cost estimates have increased for NOAA ``above standard'' 
improvements.
    What are the consequences to NOAA's budget request due to the 
delayed construction schedule?
    Is NOAA reexamining the ``above standard'' improvements in order to 
lessen any budgetary impacts?
    Answer. The NOAA Center for Weather and Climate Prediction (NCWCP) 
project is a build and lease-back project under which a private 
developer is responsible for building a facility, in this case on 
property owned by the University of Maryland. The developer will own 
the building once built, and NOAA will lease back the building. The 
developer is only responsible, under the development lease with the 
General Services Administration (GSA) who is managing the project for 
the government, to build general office building space. Tenant specific 
requirements--such as enhanced heating, ventilation, air conditioning, 
electrical, and lighting capabilities--required to support specialized 
(above office-standard) NOAA operations such as weather and climate 
modeling, laboratory operations, analysis of global environmental 
satellite data, and protecting the reliable flow of critical weather 
warning, forecast, and data products to the Public must be paid for by 
NOAA as part of the initial construction costs of the building.
    NOAA has been apprised by GSA that, due to delays in the 
construction schedule and general increases in construction costs 
(labor and materials) at rates higher than those projected by GSA when 
the initial cost estimate for the project was developed in 2002, NOAA 
should expect increases in the cost of above-standard construction 
work. NOAA has not yet received final pricing of above-standard 
construction work from the developer. Once we have received this 
pricing information, we will assess the impact on fiscal year 2008. 
Failure by the government to timely fund these costs could further 
delay the construction schedule; and expose the government to claims 
from the developer for government-caused delays and associated 
financial damages.
    We are continuing to re-examine areas where we can take reductions 
in above-standard requirements without compromising the mission 
conducted at the facility, so as to mitigate budgetary impacts.
                   npoess and goes-r funding request
    Question. Please provide a detailed breakout of the NPOESS and 
GOES-R program funding requests for fiscal year 2008 for each of the 
major aspects of the programs.
    Answer. The fiscal year 2008 request for the Geostationary 
Operational Environmental Satellite Series R (GOES-R) Series is $279 
million. The breakout of the budget request, in millions of dollars, is 
as follows:

                        [In millions of dollars]
------------------------------------------------------------------------
                  Development Activity                        Request
------------------------------------------------------------------------
System Acquisition and Operations.......................              45
Spacecraft..............................................              14
Instruments:
    Advanced Baseline Imager (ABI) to meet the                        54
     production schedule for launch and provide real-
     time environmental data and uninterruptible
     observations.......................................
    Solar Imaging Suite (SIS) preliminary design........              55
    Space Environmental In Situ Suite (SEISS)                         21
     preliminary design.................................
    Geostationary Lightning Mapper (GLM) continuation of              17
     the acquisition and operations phase...............
Government Program Office Operations....................              73
                                                         ---------------
      TOTAL GOES-R Fiscal Year 2008 Request.............             279
------------------------------------------------------------------------

    The combined fiscal year 2008 request for the National Polar-
orbiting Operational Environmental Satellite System (NPOESS) is $666 
million. Of that amount, NOAA's portion is $331 million, with the 
remaining funding coming from the U.S. Air Force. The breakout of the 
fiscal year 2008 budget request, in millions of dollars, is as follows:

                        [In millions of dollars]
------------------------------------------------------------------------
                  Development Activity                        Request
------------------------------------------------------------------------
Program Acquisition--NPOESS Prime Contract:
    Ground Systems......................................              98
    Spacecraft and Instruments..........................             340
    System Engineering/Program Management...............             142
Government Program Office Operations....................              86
                                                         ---------------
      TOTAL NPOESS Fiscal Year 2008 Request.............             666
------------------------------------------------------------------------

                        goes-r program trl level
    Question. The NOAA budget justification states that the GOES-R 
satellite launch date is now ``no earlier than 2014'' and that this 
provides ``additional opportunities to mitigate identified risks in 
GOES-R development.''
    Using the NASA defined Technical Readiness Scale (TRL), what level 
is the GOES-R program currently in? What TRL level will GOES-R be in at 
the end of fiscal year 2008?
    Answer. Technology Readiness Levels (TRL) for GOES-R are:

------------------------------------------------------------------------
                                            Current TRL    Projected TRL
               Instrument                   (September      (September
                                               2006)           2008)
------------------------------------------------------------------------
Advanced Baseline Imager (ABI)..........               5               6
Solar Imaging Suite (SIS)...............               6               6
Space Environmental In-Situ Suite                      5               6
 (SEISS)................................
Geostationary Lightning Mapper (GLM)....               4               5
Spacecraft contract.....................         ( \1\ )             5-6
------------------------------------------------------------------------
\1\ Not awarded.

                    goes satellite construction time
    Question. Please provide a summary of how long it took to build 
each GOES satellite starting with GOES-11 through GOES-P.
    Answer.
GOES I-M Series
    Contract award for the Geostationary Operational Environmental 
Satellites (GOES) I-M Series was made on 1985. The first in the series, 
GOES-I, was launched in April 1994.

------------------------------------------------------------------------
                                     Contract Award
            Satellite                     Date          Satellite Launch
------------------------------------------------------------------------
GOES-L (GOES-11).................  1985..............  May 2000
GOES-M (GOES-12).................  1985..............  July 2001
------------------------------------------------------------------------

GOES N-Series
    GOES N-Series used the same primary instruments as the GOES I-M 
Series but a different spacecraft.

------------------------------------------------------------------------
                                     Contract Award
            Satellite                     Date          Satellite Launch
------------------------------------------------------------------------
GOES-N (GOES-13).................  1998..............  May 2006
GOES-O...........................  1998..............  Spring 2008
GOES-P...........................  1998..............  Spring 2009
------------------------------------------------------------------------

    For both the GOES I-M Series and GOES N-P Series, it took longest 
to build and launch the first satellite in the Series. The second and 
subsequent satellites in the Series are the same design as the first 
satellite.
                 probability of goes-r operational gap
    Question. What is the estimated probability of an operational gap 
if GOES-R launches in 2013? 2014? 2015?
    Answer. In order to minimize the probability of an operational gap, 
NOAA maintains two operational spacecraft, Geostationary Operational 
Environmental Satellite (GOES)-East and GOES-West, and an on-orbit 
spare at all times. The on-orbit spare can be activated to operational 
status in a short period of time in the event either GOES-East or GOES-
West satellites fail.
    NOAA constantly assesses the health of the spacecraft and 
instruments and uses sophisticated statistical techniques to calculate 
when satellites are needed to avoid an operational gap. Based on these 
analyses, NOAA has determined that the GOES-R satellite needs to launch 
in December 2014 to serve as the on-orbit spare. Two years later it 
will replace GOES-O as an operational satellite.
    Launching GOES-R in December 2014 results in a 78 percent 
probability of two spacecraft availability.
    Launching GOES-R in 2013 increases the probability to 86 percent of 
two operational spacecraft.
    Launching GOES-R later in 2015, decreases the two-operational 
spacecraft availability to 62 percent.
    Question. If an operational gap were to occur in GOES-R--what 
backup plan exists (e.g., utilizing other systems (allied or 
domestic))?
    Answer. A single catastrophic failure of GOES-R would not 
compromise our ability to provide coverage. Should GOES-R sustain a 
catastrophic failure, GOES-S is planned to be launched (April 2016) in 
sufficient time to support the planned GOES-R activation in 2017. If 
the GOES constellation were to sustain multiple catastrophic failures, 
then NOAA would continue to rely on potentially degraded support using 
existing satellites from the GOES-N Series, or a degraded single 
satellite constellation located over the central United States.
    Further, NOAA would supplement data needs from all available NOAA 
and non-NOAA polar-orbiting environmental satellites. NOAA also has on-
going international agreements to provide mutual geostationary 
environmental satellite back-up with the European Organisation for the 
Exploitation of Meteorological Satellites (EUMETSAT) and the Japanese 
Meteorological Agency (JMA) in the event of premature system or launch 
failure. This arrangement is based on previous experience of NOAA 
providing backup to JMA, and EUMETSAT providing backup support to NOAA. 
Under the single satellite constellation, NOAA would lose the ability 
to detect and track storms at the edges of the Atlantic and Pacific 
Oceans. This could lead to degraded hurricane forecasting in the 
Caribbean and Atlantic coasts, and Hawaii, respectively.
    Question. If an operational gap were to occur in GOES-R--what 
backup plan exists (e.g., utilizing other systems (allied or 
domestic))?
    Answer. A single catastrophic failure of GOES-R would not 
compromise our ability to provide coverage. Should GOES-R sustain a 
catastrophic failure, GOES-S is planned to be launched (April 2016) in 
sufficient time to support the planned GOES-R activation in 2017. If 
the GOES constellation were to sustain multiple catastrophic failures, 
then NOAA would continue to rely on potentially degraded support using 
existing satellites from the GOES-N Series.
    Further, NOAA would supplement data needs from all available NOAA 
and non-NOAA polar-orbiting environmental satellites. NOAA also has on-
going international agreements to provide mutual geostationary 
environmental satellite back-up with the European Organisation for the 
Exploitation of Meteorological Satellites (EUMETSAT) and the Japanese 
Meteorological Agency (JMA) in the event of premature system or launch 
failure. This arrangement is based on previous experience of NOAA 
providing backup to JMA, and EUMETSAT providing backup support to NOAA.
    Question. If an operational gap does occur--what is the impact to 
short-term forecasting ability?
    Answer. In the event there was a gap in coverage from the 
Geostationary Operational Environmental Satellite (GOES), the most 
immediate impact would be loss in the quality of short term weather 
forecasts and timeliness of data refresh from every 30 minutes with 
GOES to every 6 hours with polar-orbiting satellite data.
    Without GOES, forecasters would be blind to short-term variations 
in hazard weather events such as hurricanes, thunderstorms, flash 
floods, low clouds and fog.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                      coastal non-point pollution
    Question. The Coastal Zone Management Act gives authority to 
coastal states to implement a coastal nonpoint polluted runoff control 
program and both the Pew and U.S. Ocean Commissions found that polluted 
runoff is the single greatest source of ocean pollution. How can you 
assure us that coastal states will get adequate funding to carry out 
these coastal water quality programs in the 2007 budget? And because 
the President's 2008 budget provides zero funding for this program, 
what will you do to restore funding for this vital program?
    Answer. Although NOAA was not able to fund the non-point grants 
within the fiscal year 2007 plan, NOAA has funded the Coastal Zone 
Management Grants at $65.7 million. States can reallocate resources 
within their programs to address their highest priorities, including 
the coastal water quality programs. In addition, states benefit from 
NOAA's development and dissemination of management tools and scientific 
research on nonpoint source pollution problems and responses.
    NOAA continues to support state Coastal Nonpoint Source (NPS) 
Management Programs by fostering program integration, and by helping 
coastal states focus on managing the cumulative and secondary impacts 
of development to prevent NPS pollution. NOAA is also investing in 
monitoring, research, and modeling to support NPS management, such as 
through the development, testing and transfer of innovative 
technologies and best management practices to control polluted runoff. 
We are actively pursuing efforts to link coastal growth and development 
management with water quality protection by fostering a greater 
emphasis on community development and planning efforts to address 
growth issues in a sustainable manner.
    The Non Point Implementation Grants have not been included in the 
President's Request for NOAA for a number of years, as significant 
funding for this issue is requested through other Federal Agencies.
    NOAA and the Coastal States Organization (CSO) have undertaken a 
project to engage coastal managers and stakeholders to envision the 
future of coastal management. The goal of this visioning process is to 
gather feedback on priority issues and innovative ideas for improving 
the CZMA and the National Coastal Management Program. State coastal 
managers have identified decreasing water quality as one of the highest 
priority threats to the coastal resources of their states. Workshops 
will be held for stakeholders, coastal management experts and other 
Federal agencies to generate innovative techniques and solutions, 
explore their feasibility, and assess their potential impacts and 
degree of support among constituents.
                     coastal zone management grants
    Question. Funding for California's core coastal management program 
has been capped at $2 million for the past 14 years while population 
growth now finds 1 in 10 Americans living along the California coast. 
Given that funding for coastal management nationally has increased 
during the same period by more than $20 million, are you going to 
allocate funds in the 2007 budget to the large coastal states 
proportionate to their population and length of coastline as mandated 
by the Coastal Zone Management Act?
    Answer. We greatly appreciate the multitude of issues that 
California's coastal management agencies face in managing the 
activities which affect your State's coastal resources. We also 
recognize the effectiveness of the California's coastal management 
efforts which have been consistently documented in our Section 312 
evaluations of your programs.
    As mandated by the CZMA, Section 306 funding is awarded pursuant to 
a formula based on the shoreline mileage and coastal population of each 
state. The fiscal year 2007 funds have been allocated pursuant to this 
formula.
    A $2 million cap on individual state allocations has been put in 
place by Congress for the past 14 years through the appropriations 
process. NOAA has followed this Congressional direction.
               nrdc vs. rodgers settlement implementation
    Question. The National Marine Fisheries Service (NMFS) is a Party 
to the Settlement in NRDC v. Rodgers (concerning restoration of flows 
below Friant Dam in the Central Valley Project) and NMFS has an 
important role to play to ensure the success of the restoration effort 
required by the Settlement, especially the reintroduction of Chinook 
salmon. Could you please tell me what NOAA and NMFS are currently doing 
to support the Settlement implementation effort, what actions are 
proposed in fiscal year 2008 by NOAA and NMFS to further implement the 
Settlement, and what actions are needed, if any, to ensure that the 
Department of Commerce has the necessary staff and resources to fulfill 
its future roles and responsibilities under this major Settlement?
    Answer. NMFS Southwest Regional Office has been actively involved 
in the Settlement since October 23, 2006. NMFS has been working closely 
with the Bureau of Reclamation, Fish and Wildlife Service, parties to 
the Settlement, and third parties on actions required to implement the 
Settlement. We have already provided staff to: (1) brief technical 
working groups and the public on fisheries, fish habitat, and 
Endangered Species Act compliance issues; (2) engage in all 
implementation-related technical and management meetings; (3) answer 
Congressional questions and review draft legislation; (4) provide 
expertise and technical support for the development of implementation-
related documents; and (5) provide management and policy-level guidance 
to the overall Settlement and implementation processes. NMFS is working 
closely with the Bureau of Reclamation's Sacramento Office to secure 
reimbursable funding to support staff to fully implement all of our 
roles under the Settlement. Depending on the availability of funding 
for this Settlement, NMFS will continue working on the 26 items listed 
below in a coordinated and collaborative manner.
    1. Review plans and designs for 14 major structural projects
    2. Analyses, review and provide recommendations on over 500 varying 
flows regimes
    3. Develop and review MOUs including associated budgets
    4. Review numerous contracts
    5. Review several Friant Dam maintenance and operational plans
    6. Review several water right options
    7. Develop and review recirculation, recapture, reuse, exchange or 
transfer of water plans and proposed modifications including monitoring
    8. Review draft development and implementation water plans
    9. Coordinate with 6 State agencies, 5 Federal agencies, tribes, 
and numerous NGOs
    10. Develop and review design, engineering, and monitoring studies
    11. Review potential land acquisitions and easements
    12. Develop and review environmental and permitting documents
    13. Undertake ESA Section 7 consultations and reinitiate 
consultations
    14. Undertake ESA Section 10 consultations and reinitiate 
consultations
    15. Develop and review procedural documents
    16. Analyze, review, and make recommendations on: water year data; 
water flows data and models; riparian corridors habitat models; Chinook 
fall-run and spring-run and steelhead populations
    17. Analyses, review, and make recommendations on: Restoration 
Administrator proposed actions: Technical Advisory Committee proposed 
activities; BOR and FWS proposed actions; CA DWR and DFG proposed 
actions; Secretary of the Interior proposed actions
    18. Participation in numerous technical committees
    19. Provide assistance to Federal and State agencies staffs
    20. Review legal and procedural documents
    21. Provide technical expertise and assist in the development of 
the restoration plans
    22. Develop and execute budgets and financial plans
    23. Make recommendations to Secretary of Commerce
    24. Make recommendations to Secretary of the Interior
    25. Develop and execute monitoring plans
    26. Documentation of all activities for any future court actions
               funding levels for severe weather research
    Question. The overall NOAA budget request for 2008 is less than 2 
percent greater than that for 2006, including reductions in funding of 
$82 million for Oceanic and Atmospheric Research and reductions of $4 
million for the National Weather Service. Given the large impacts of 
severe weather events on our nation's economy and the central role of 
climate change research in preparing our nation to adapt to the 
economic and ecologic impacts of climate change, can NOAA fulfill its 
mission at the funding levels requested in the President's budget? If 
not, what level of additional support is needed to properly address 
these challenges?
    Answer. The President's fiscal year 2008 budget for NOAA requests a 
total of $3.8 billion, an increase of $131 million or 3.4 percent over 
the fiscal year 2007 President's budget. NOAA believes that the fiscal 
year 2008 budget request will allow NOAA to fulfill its obligations. 
The budget request advances mission-critical services, including work 
to expand meteorological prediction and extend our knowledge of 
climatic change.
    The Office of Oceanic and Atmospheric Research (OAR) requests a 
total of $368.8 million in fiscal year 2008, reflecting a net increase 
of $20.1 million from the fiscal year 2007 President's budget and a 
decrease of $10.9 million from the fiscal year 2006 appropriation. The 
decrease from the fiscal year 2006 enacted level is due primarily to 
the large number of un-requested projects in 2006. Even in a tight 
budget year, the fiscal year 2008 budget request supports some new, 
cutting-edge science efforts by OAR's research programs.
    The National Weather Service (NWS) requests $903.5 million in 
fiscal year 2008, reflecting a net increase of $21.6 million over the 
fiscal year 2007 President's budget as well as an increase of $55.2 
million from the fiscal year 2006 enacted level. This budget request 
continues NWS on a path to produce and deliver forecasts that are 
trusted, employ cutting-edge technologies, provide services in a cost-
effective manner, strive to eliminate weather-related fatalities, and 
improve the economic value of weather, water, and climate information. 
The request fully supports NWS forecast and warning operations. NOAA/
NWS is committed to improving operational effectiveness and services, 
particularly for high-impact weather events, by taking full advantage 
of emerging science and technological improvements. We are committed to 
evolving services to best meet the changing and growing need for 
environmental forecasts and services. The NWS's fiscal year 2008 budget 
request supports efforts to upgrade the NEXRAD Radar network by 
implementing dual polarimetric radar. It also supports other efforts 
including: improved numerical modeling, data assimilation, education 
and outreach, training, forecaster workstation (AWIPS) upgrades, as 
well as efforts for future technological advances, such as phased array 
radar (PAR). We believe the President's fiscal year 2008 budget Request 
positions us to make those technical and service improvements.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
                        ocean initiative funding
    Question. I am pleased to see that NOAA's 2008 budget request 
includes an increase of $123 million for the President's Ocean Action 
Plan, which is in part, related to the Joint Ocean Commission's recent 
reports. As you know, the Senate has been working with the Commission 
to receive specific, real-world guidance on how to improve ocean 
research and education. NOAA's increase is a step in the right 
direction, but based on the Commission's recommendations, the Nation 
still have a long way to go. Admiral, I know you are well aware of the 
Joint Ocean Commission's recent reports, and I know you strive to 
better our nation's ocean research activities. How can the Senate help 
you to ensure that this trend on funding increases and program 
advancements continues?
    Answer. As you are aware, the fiscal year 2008 President's budget 
request includes $123 million in direct support of the President's 
Ocean Action Plan. To continue this positive trend in NOAA's ocean 
programs, please support the President's budget; specifically those 
items that support the Ocean Action Plan. We thank you and your 
colleagues for your continued support of NOAA's ocean programs, and ask 
that you continue to be leaders on ocean and coastal issues on a 
national level.
                       noaa corps reauthorization
    Question. Admiral, the Committee supports NOAA Commissioned Officer 
Corps and the valuable expertise they lend to NOAA's field operations 
and homeland security activities. The Committee understands that the 
NOAA Corps authorization, which regulates the size of the Corps, has 
expired. When can Congress expect the NOAA Corps legislation package to 
be cleared by NOAA?
    Answer. NOAA is interested in reauthorizing the NOAA Corps and we 
look forward to working with the Committee on this important 
legislation. Efforts to consider and possible develop a NOAA Corps 
legislation package are currently underway.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. If there is nothing further, the 
subcommittee will stand in recess.
    [Whereupon, at 11:41 p.m., Thursday, March 8, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]



</pre></body></html>
